<html>
<title> - CHEMICAL AND BIOLOGICAL EQUIPMENT: PREPARING FOR A TOXIC BATTLEFIELD</title>
<body><pre>[House Hearing, 107 Congress]
[From the U.S. Government Printing Office]




 
  CHEMICAL AND BIOLOGICAL EQUIPMENT: PREPARING FOR A TOXIC BATTLEFIELD

=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON NATIONAL SECURITY,
                   VETERANS AFFAIRS AND INTERNATIONAL
                               RELATIONS

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

                               __________

                            OCTOBER 1, 2002

                               __________

                           Serial No. 107-232

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpo.gov/congress/house
                      http://www.house.gov/reform

                                 ______

                     U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
88-612 PDF

For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001



                     COMMITTEE ON GOVERNMENT REFORM

                     DAN BURTON, Indiana, Chairman
BENJAMIN A. GILMAN, New York         HENRY A. WAXMAN, California
CONSTANCE A. MORELLA, Maryland       TOM LANTOS, California
CHRISTOPHER SHAYS, Connecticut       MAJOR R. OWENS, New York
ILEANA ROS-LEHTINEN, Florida         EDOLPHUS TOWNS, New York
JOHN M. McHUGH, New York             PAUL E. KANJORSKI, Pennsylvania
STEPHEN HORN, California             CAROLYN B. MALONEY, New York
JOHN L. MICA, Florida                ELEANOR HOLMES NORTON, Washington, 
THOMAS M. DAVIS, Virginia                DC
MARK E. SOUDER, Indiana              ELIJAH E. CUMMINGS, Maryland
STEVEN C. LaTOURETTE, Ohio           DENNIS J. KUCINICH, Ohio
BOB BARR, Georgia                    ROD R. BLAGOJEVICH, Illinois
DAN MILLER, Florida                  DANNY K. DAVIS, Illinois
DOUG OSE, California                 JOHN F. TIERNEY, Massachusetts
RON LEWIS, Kentucky                  JIM TURNER, Texas
JO ANN DAVIS, Virginia               THOMAS H. ALLEN, Maine
TODD RUSSELL PLATTS, Pennsylvania    JANICE D. SCHAKOWSKY, Illinois
DAVE WELDON, Florida                 WM. LACY CLAY, Missouri
CHRIS CANNON, Utah                   DIANE E. WATSON, California
ADAM H. PUTNAM, Florida              STEPHEN F. LYNCH, Massachusetts
C.L. ``BUTCH'' OTTER, Idaho          ------ ------
EDWARD L. SCHROCK, Virginia                      ------
JOHN J. DUNCAN, Jr., Tennessee       BERNARD SANDERS, Vermont 
JOHN SULLIVAN, Oklahoma                  (Independent)


                      Kevin Binger, Staff Director
                 Daniel R. Moll, Deputy Staff Director
                     James C. Wilson, Chief Counsel
                     Robert A. Briggs, Chief Clerk
                 Phil Schiliro, Minority Staff Director

 Subcommittee on National Security, Veterans Affairs and International 
                               Relations

                CHRISTOPHER SHAYS, Connecticut, Chairman

ADAM H. PUTNAM, Florida              DENNIS J. KUCINICH, Ohio
BENJAMIN A. GILMAN, New York         BERNARD SANDERS, Vermont
ILEANA ROS-LEHTINEN, Florida         THOMAS H. ALLEN, Maine
JOHN M. McHUGH, New York             TOM LANTOS, California
STEVEN C. LaTOURETTE, Ohio           JOHN F. TIERNEY, Massachusetts
RON LEWIS, Kentucky                  JANICE D. SCHAKOWSKY, Illinois
TODD RUSSELL PLATTS, Pennsylvania    WM. LACY CLAY, Missouri
DAVE WELDON, Florida                 DIANE E. WATSON, California
C.L. ``BUTCH'' OTTER, Idaho          STEPHEN F. LYNCH, Massachusetts
EDWARD L. SCHROCK, Virginia

                               Ex Officio

DAN BURTON, Indiana                  HENRY A. WAXMAN, California
            Lawrence J. Halloran, Staff Director and Counsel
                  J. Vincent Chase, Chief Investigator
                           Jason Chung, Clerk
                    David Rapallo, Minority Counsel




                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on October 1, 2002..................................     1
Statement of:
    Johnson-Winegar, Dr. Anna, Assistant to Secretary of Defense 
      for CBD; General Stephen Goldfein, Deputy Director, Joint 
      Warfighting Capability Analysis JCS; Major General William 
      L. Bond, Office of the Assistant Secretary of the Army 
      (Alt); Michael A. Parker, Deputy to the Commander, U.S. 
      Army Soldier and Biological Chemical Command [SBCCOM]; and 
      George Allen, Deputy Director, Defense Supply Center-
      Philadelphia, Defense Logistics Agency, Department of 
      Defense....................................................    74
    Schmitz, Joseph E., Inspector General, Office of the 
      Inspector General, Department of Defense, accompanied by 
      Donald A. Bloomer, Program Director, Readiness Division, 
      Office of the Inspector General, Department of Defense; and 
      David K. Steensma, Deputy Assistant Inspector General, 
      Office of the Inspector General, Department of Defense; and 
      Raymond J. Decker, Director, Defense Capabilities and 
      Management, U.S. General Accounting Office, accompanied by 
      William W. Cawood, Assistant Director, Defense Capabilities 
      and Management, U.S. General Accounting Office.............    16
Letters, statements, etc., submitted for the record by:
    Allen, George, Deputy Director, Defense Supply Center-
      Philadelphia, Defense Logistics Agency, Department of 
      Defense, prepared statement of.............................   118
    Bolton, Claude, Assistant Secretary of the Army for 
      Acquisition, Logistics and Technology and the Army 
      Acquisition Executive, prepared statement of...............    93
    Decker, Raymond J., Director, Defense Capabilities and 
      Management, U.S. General Accounting Office, prepared 
      statement of...............................................    31
    Goldfein, General Stephen, Deputy Director, Joint Warfighting 
      Capability Analysis JCS, prepared statement of.............    86
    Johnson-Winegar, Dr. Anna, Assistant to Secretary of Defense 
      for CBD, prepared statement of.............................    78
    Parker, Michael A., Deputy to the Commander, U.S. Army 
      Soldier and Biological Chemical Command [SBCCOM], prepared 
      statement of...............................................   109
    Schmitz, Joseph E., Inspector General, Office of the 
      Inspector General, Department of Defense, prepared 
      statement of...............................................    20
    Shays, Hon. Christopher, a Representative in Congress from 
      the State of Connecticut, prepared statement of............     4
    Watson, Hon. Diane E., a Representative in Congress from the 
      State of California, prepared statement of.................    12


  CHEMICAL AND BIOLOGICAL EQUIPMENT: PREPARING FOR A TOXIC BATTLEFIELD

                              ----------                              


                        TUESDAY, OCTOBER 1, 2002

                  House of Representatives,
Subcommittee on National Security, Veterans Affairs 
                       and International Relations,
                            Committee on Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:05 a.m., in 
room 2247, Rayburn House Office Building, Hon. Christopher 
Shays (chairman of the subcommittee) presiding.
    Present: Representatives Shays, Gilman, Platts, Kucinich, 
Schakowsky, Tierney, Allen, and Watson.
    Staff present: Lawrence J. Halloran, staff director and 
counsel; J. Vincent Chase, chief investigator; Dr. R. Nicholas 
Palarino, senior policy advisor; Jason M. Chung, clerk; Jarrel 
Price, intern; David Rapallo, minority counsel; and Earley 
Green, minority assistant clerk.
    Mr. Shays. A quorum being present, the Subcommittee on 
National Security, Veterans Affairs and International Relations 
hearing entitled Chemical and Biological Equipment: Preparing 
for a Toxic Battlefield,'' is called to order.
    In the event U.S. forces are called upon to rid the world 
of the grave and growing threat posed by the current Iraqi 
regime, it must be assumed those men and women will face 
chemical and biological weapons.
    That prospect compels us to ask, are we ready to fight and 
prevail on a contaminated battlefield? That question has vexed 
Pentagon planners and congressional committees since the 
Persian Gulf war.
    According to the Department of Defense, DOD, after-action 
analyses, shortcomings in the availability, suitability and 
durability of chemical and biological, CB, defense equipment, 
particularly protective suits and masks, left combat troops 
avoidably vulnerable to unconventional attack in Operation 
Desert Storm.
    Despite prolonged and costly efforts to improve CB defense 
doctrines, tactics and materiel, seemly intractable problems 
still plague the effort to defend against chemical and 
biological weapons attacks. Research and development remains 
unfocused and in some instances duplicative.
    Procurements are behind schedule. Due to persistent 
inventory management weaknesses, DOD does not always know how 
many CB defense items are available, where they are, or when 
they will get to the soldiers, sailors, airmen and Marines who 
need them. Old protective suits are expiring faster than the 
next generation suits are being produced, pointing to a 
potential shortage through most of this decade.
    Compounding the problem, overall inventory visibility 
remains so poor, some units have sold new suits on the Internet 
as excess while other units are forced to delay critical 
training because they can't get the same suits.
    A byzantine management structure wastes time and money and 
allows the Army, Navy and Air Force to maintain service-
specific approaches at the expense of a truly joint effort.
    Some of these problems are endemic to any BC defense 
effort. Protective suits have always been too hot, masks prone 
to leak, collective protective shelters were deemed inadequate. 
Decontamination systems required too much water, detectors 
sounded false alarms too often, and medical antidotes were not 
trusted.
    These old complaints reflect the harshest reality 
confronted on the modern battlefield: There is no absolute 
immunity to biological or chemical attack.
    Nevertheless, having rightly renounced in-kind retaliation 
capabilities, the key to CB deterrence is CB defense. U.S. 
personnel must be the best equipped and best prepared force on 
Earth to enable them to survive, fight and win on a chemical 
and biological battlefield.
    One important lesson learned in the Gulf war should inform 
our discussion today. CB defense is a tactical, not a strategic 
consideration. Contamination avoidance and other force 
protection capabilities shape how U.S. forces pursue their 
mission, not whether that mission is in our national interest.
    As one Gulf war analyst put it, having looked into the eyes 
of the dragon in the Iraqi desert, military planners cannot 
rely on nuclear deterrence or mere luck to avoid CB attack. We 
must constantly reevaluate the threat and reform our defenses 
against it.
    Two years ago this subcommittee heard testimony from the 
General Accounting Office, GAO, the DOD Inspector General and 
key Pentagon officials in the status of the chemical and 
biological defense program. We told them then that we would 
invite them back to describe progress and problems meeting 
their own performance goals.
    Whether the threat emanates from Iraq, Iran, North Korea or 
some national terrorist groups, their answers are of vital 
importance to our national security.
    This open hearing will be followed by a closed session to 
allow Members to question our witnesses on classified aspects 
of the CB defense program. While I understand the imperative to 
protect sensitive material, I have been concerned for some time 
that excessive classification of information in this area has 
done unconscionable damage to reform efforts.
    Failure to declassify IG reports on gas mask failures in 
the Gulf war era allowed the problem to fester for years behind 
a bureaucratic fog. The frankest possible discussion of the 
challenges we face, short of telegraphing actual 
vulnerabilities to a potential enemy, is an essential element 
of an effective CB defense program.
    In that spirit, we welcome our very distinguished 
witnesses. We look forward to their testimony, and we thank 
them from the bottom of our hearts for their service to our 
country during these very troubled times.
    At this time I would recognize my colleague, the very 
active member and partner in the work of this committee, the 
ranking member, Dennis Kucinich.
    [The prepared statement of Hon. Christopher Shays follows:]
    [GRAPHIC] [TIFF OMITTED] T8612.001
    
    [GRAPHIC] [TIFF OMITTED] T8612.002
    
    [GRAPHIC] [TIFF OMITTED] T8612.003
    
    Mr. Kucinich. I want to thank the Chair for calling this 
hearing, and to indicate my willingness to work with you on 
these issues that are so important to our national security.
    On September 18th, General Myers, the chairman of the Joint 
Chiefs of Staff, testified before the Armed Services Committee. 
He was asked, under oath, whether the Pentagon was prepared to 
handle a chemical or biological attack by Iraq.
    In response he made the following assertion, ``Obviously 
our forces prepare for that, they train for that, and they 
would be ready to deal with that type of environment.''
    Today the Inspector General of the Department of Defense 
and the U.S. General Accounting Office are issuing independent 
reports detailing a host of new and disturbing findings about 
the inability of the Department of Defense to protect service 
members against chemical and biological attacks.
    These reports are not peripheral. They strike at the core 
of our servicemen and servicewomen's ability to carry out their 
mission, and these reports were written by two agencies charged 
with providing independent and unbiased assessments. They also 
directly contradict the Department of Defense's public 
assertion of confidence.
    Now, unfortunately, the American public will never see 
these reports. The country will not understand the true scope 
of these problems because the Department of Defense has 
classified those reports. Now, I can understand on one hand the 
rationale for classification, not wanting to reveal sensitive 
vulnerabilities to adversaries, not wanting to place the lives 
of service members at risk. Those are important considerations.
    But, under the circumstances, in order to protect our 
servicemen and servicewomen, we have to look at the flip side 
of that argument. By denying the American people information 
that is critical to the safety of our sons and daughters who 
serve in the field, the Department of Defense may be placing 
servicemen and servicewomen at even greater risk. There are a 
great number of American families of servicemen and 
servicewomen who served this country during the last war in the 
Persian Gulf, and they understand, based on the experience that 
their loved ones have had with what is called Gulf War 
Syndrome.
    There are many different circumstances and reasons why 
people could have developed the sensitivities that they did. 
One speculation is that U.S. bombs hit ammunition dumps, which 
then exploded certain biologicals and chemicals that may have 
occasioned contact with our service personnel.
    Another is the possibility that such weapons were 
dispersed. But, in any event, we know that American servicemen 
and servicewomen were adversely affected and that they weren't 
protected, and that the Department of Defense has not protected 
the people who served during the Gulf war, and there are 
families that have been devastated by this.
    So we have to come back to the moment and ask what will we 
do to protect the servicemen and servicewomen of this country 
before we get into such a conflict. The American people deserve 
to know the true dangers which their sons and daughters could 
face.
    And up to now, up to now the Department of Defense has 
downplayed those dangers. The Department of Defense wants it 
both ways. On one hand it claims that we must take urgent, even 
unilateral action against Iraq, because we are told by some, 
although not conclusively confirmed by the CIA, that Iraq 
possesses chemical and biological weapons.
    Yet, contrary to the last decade in which Iraq refrained 
from using chemical or biological weapons, there is a consensus 
that if the United States goes into Iraq with the purpose of 
regime change, Saddam Hussein will have nothing to lose by 
using whatever weapons he may have.
    Now, obviously, in this case inspections become of urgent 
concern. On the other hand, when it comes to the actual dangers 
our Armed Forces face, the Department of Defense has not been 
forthcoming. Administration officials say they are confident 
they have enough working protective gear to ensure the safety 
of our service members. Well, today the myth is exposed.
    The classified reports need to be unclassified. The 
American people have a right to know the dangers that our young 
men and women could face. The American people have a right to 
know the preparedness of our military on matters of biological 
and chemical weapons conflict. The American people have a right 
to know whether or not there are serious deficiencies in 
equipment and inadequate and deficient training.
    Now, I am forbidden from discussing the details of 
classified reports, but I will mention one unclassified 
example. We know that many protective suits that would be worn 
by our men and women who would serve in combat, many of those 
protective suits currently are in the field and these suits are 
defective.
    Suits have holes in them. They have tears in the seams. 
They cannot protect against a chemical or biological attack. 
They would leave vulnerable the men and women out in the field.
    Now, although the suit manufacturer is now in prison, 
hundreds of thousands of these suits went out into the field. 
They were given to service members throughout the world. They 
were provided to soldiers in Bosnia, and as of last year the 
Pentagon, and this is on the record, this is already known, 
this is not classified, as of last year the Pentagon could not 
account for a quarter of a million of such suits.
    It is public knowledge. The Department of Defense was 
unable to recall these suits, because its inventory systems are 
very poor. The General Accounting Office reported that several 
military suits--several military units were selling brand new 
protective suits which cost $200 apiece over the Internet for 
$3 each.
    As a result, there is a real possibility that in the near 
future a young man or woman in the Persian Gulf may slip on one 
of these protective suits with a false promise of protection.
    Now, I am sure that we will hear from the Department of 
Defense that systems are now in place to avoid such mistakes. 
However, this is the same department which has dragged its feet 
in first identifying the defective suits, the same department 
that refused to test all of the suits because of cost concerns, 
and the same department that refused to separate its 
inventories when suits in fact proved defective.
    I want to thank the chairman for holding this hearing, 
because this hearing is about national security. But it is also 
about whether we care about our servicemen and servicewomen, 
and the conditions that we would put them in. I am not going to 
have any servicemen and servicewomen serving this country, put 
them in harm's way and not make sure that they have every piece 
of equipment they need to protect them and to make sure that 
they can serve this country.
    I thank the Chair.
    Mr. Shays. Thank the gentleman. We have Mr. Tierney. Mr. 
Tierney, thank you for being here. You have been a very active 
participant on this issue, and have taken a keen interest in 
this particular hearing. Thank you for coming.
    Mr. Tierney. Thank you, Mr. Chairman, and I hope whatever 
it is that you have for a cold gets better soon. Sounds like 
tough going there.
    Mr. Chairman, I think you know from correspondence that I 
have had with you and discussions that I have great concern 
about the preparedness and the readiness of our troops to 
engage in the type of a conflict that may well be met in the 
Middle East.
    And one of the concerns that I think many of us have about 
a unilateral preemptive strike without first going through the 
international bodies and having our allies work with us to try 
to accomplish the ends of inspections and disarmament and then 
moving only as a last resort to a military engagement, a lot of 
that stems from recent reports on the Millennium Challenge 
2002, which was warfare simulation exercises that I wrote you 
about and which were reported in a recent column in the New 
York Times, not very favorably, and they raised great concern.
    And I am somewhat concerned also that much of the 
information we are going to hear today about relevant factors 
presumably are going to come in a classified section of this 
hearing, and I think that when we are having a public 
discussion about what the future of this country is going to be 
in terms of going to war or not going to war and engaging the 
young men and women of our services, the public ought to have 
all of the pertinent information that isn't truly in need of 
classification.
    I oftentimes question just why we classify much of the 
information, because once we get into those classified hearings 
it seems the public well should have much of those facts. But 
the reports of this simulation, simulated exercise indicate 
that clearly any action we have against Iraq wouldn't be a cake 
walk, for sure.
    The report, and I hope we get to the bottom of this, says 
that the war games were fiddled with in ways that raise 
questions about whether the government is returning to a 
Vietnam style over optimism and myopia.
    In fact Paul Van Riper, who is a retired Marine Lieutenant 
General, who played the enemy's military commander during these 
exercises, was quoted as saying, there is an unfortunate 
culture developing in the American military that maybe should 
make you nervous. I don't see the rich intellectual discussion 
that we had after Vietnam, I see mostly slogans, cliches and 
unreadable materials.
    And then General Van Riper said the mood reminded him of 
the mindset in Vietnam, excessive faith in technology, 
inadequate appreciation of the fog of war, lack of 
understanding of the enemy, and simple hubris. I don't think we 
can afford hubris, Mr. Chairman. I think that we have to be 
absolutely certain that our troops are prepared, that all of 
the equipment that we give them to go into any situation is 
going to be effective beyond question, and that we have to make 
sure that we are ready.
    These reported exercises again indicate to us that before 
the 13,500 people participating in it, before the American 
forces in these games even arrived on the scene they were sunk. 
Much of the American fleet was sunk. So in order to have the 
exercise go forward, they just resurrected them and started 
again. They also indicated that they took away many of the 
options that we could expect Saddam Hussein to use and didn't 
make them available to the enemy.
    And I understand, as this article indicated, that these are 
war games, war simulations, and obviously you want to learn as 
much as you can. I think what we need to find out today is are 
we learning, are we learning from whatever happened in there 
that was not good news, and are we going to take whatever 
action is necessary to make sure that our troops are properly 
equipped and well protected, and that we go in a sequence in 
which we would go in moving forward on these issues of such 
import, and that we are thoroughly prepared.
    So with those comments, Mr. Chairman, I look forward to the 
hearing and our witnesses and the testimony.
    Mr. Shays. Thank you. If my colleagues would just permit me 
to say that when we had the debate on whether or not to go into 
the Persian Gulf war, it was a debate in which all Members 
stated their views. We tried to get as much information as 
possible, and we were very respectful of each other's 
positions.
    And I appreciate you raising the questions you have. 
Obviously it is a bit awkward to have an open hearing and then 
a declassified one and then a classified one.
    But we decided to go with the open first and push as hard 
as we can to know what can be on the record, and then we will 
leave the rest for the classified. In other words, we have 
reversed the order that we usually do.
    And I just want to say that I would have to believe that 
everyone cares about obviously making sure our troops are 
protected. But there are questions about frankly how well they 
were protected in the Persian Gulf as this committee and you 
all have, both of you have clearly pointed out.
    We have two panels. We have Mr. Joseph Schmitz, Inspector 
General, Office of the Inspector General, Department of 
Defense, accompanied by Donald A. Bloomer, Program Director, 
Readiness Division, Office of the Inspector General, and David 
K. Steensma, Deputy Assistant Inspector General, Office of the 
Inspector General, Department of Defense.
    Mr. Schmitz will testify. And then we have, from the GAO, 
Mr. Raymond J. Decker, Director of Defense Capabilities and 
Management, U.S. General Accounting Office, accompanied by Mr. 
William W. Cawood, Assistant Director of Defense Capabilities 
and Management, U.S. General Accounting Office.
    We will follow this process. You will see the 5-minute 
light. We allow you to go on another 5 minutes, but we are not 
trying to encourage you to fill the full 10 minutes. We would 
like you to stop clearly before then.
    But if you deem it necessary, the issue is too important, 
and my colleagues and I understand that and would want you to 
be able to make your points as you need to make them. But we 
would prefer that they be 5 minutes, and then roll over 5, but 
clearly not to 10 total.
    At this time, let me just take care of some housekeeping. I 
ask unanimous consent that all members of the subcommittee be 
permitted to place an opening statement in the record and that 
the record remain open for 3 days for that purpose. Without 
objection, so ordered.
    [The prepared statement of Hon. Diane E. Watson follows:]
    [GRAPHIC] [TIFF OMITTED] T8612.004
    
    [GRAPHIC] [TIFF OMITTED] T8612.005
    
    [GRAPHIC] [TIFF OMITTED] T8612.006
    
    [GRAPHIC] [TIFF OMITTED] T8612.007
    
    Mr. Shays. I ask further unanimous consent that all 
witnesses be permitted to include their written statements in 
the record. Without objection, so ordered.
    At this time, I would ask the gentlemen who are testifying 
and the accompanying testifiers to stand up. If there is anyone 
else that may be responding to questions, I would like them to 
stand up in this first panel. Are we pretty complete with the 5 
of us here?
    [Witnesses sworn.]
    Mr. Shays. Note for the record our witnesses have responded 
in the affirmative.
    Mr. Schmitz, we are going to start you off, and then we are 
going to go to Mr. Kucinich for the first round of questions, 
then I will go and then Mr. Tierney, unless there is another of 
my colleagues who comes.
    Mr. Schmitz.

 STATEMENTS OF JOSEPH E. SCHMITZ, INSPECTOR GENERAL, OFFICE OF 
 THE INSPECTOR GENERAL, DEPARTMENT OF DEFENSE, ACCOMPANIED BY 
DONALD A. BLOOMER, PROGRAM DIRECTOR, READINESS DIVISION, OFFICE 
 OF THE INSPECTOR GENERAL, DEPARTMENT OF DEFENSE; AND DAVID K. 
  STEENSMA, DEPUTY ASSISTANT INSPECTOR GENERAL, OFFICE OF THE 
   INSPECTOR GENERAL, DEPARTMENT OF DEFENSE; AND RAYMOND J. 
  DECKER, DIRECTOR, DEFENSE CAPABILITIES AND MANAGEMENT, U.S. 
 GENERAL ACCOUNTING OFFICE, ACCOMPANIED BY WILLIAM W. CAWOOD, 
 ASSISTANT DIRECTOR, DEFENSE CAPABILITIES AND MANAGEMENT, U.S. 
                   GENERAL ACCOUNTING OFFICE

    Mr. Schmitz. Thank you, Mr. Chairman.
    Mr. Shays. I am going to make another request. I am sorry 
to interrupt you before you just said one word. For some 
reason, we don't have a very good cooling system. I think it is 
getting a little better. But our amplification is not so 
terrific. The silver mic is what amplifies, the black mic is 
what is part of C-SPAN, obviously both are important. Just want 
you to speak fairly loudly.
    Mr. Schmitz. Thank you, Mr. Chairman, Ranking Member 
Kucinich, Mr. Tierney.
    This is the second opportunity I have had to appear before 
this committee, this subcommittee, and I am grateful for the 
previous and this opportunity to address your questions 
regarding the status of individual protective equipment 
intended to protect our Armed Forces from chemical and 
biological attack.
    I share your concerns with respect to the Department's 
inventories, quality controls and serviceability of individual 
protective equipment.
    In our open session I want to present our observations 
related to the need for an inventory management tool at the 
unit level that contains the essential elements needed for 
chemical and biological defense materiel, improvement in 
readiness reporting and training challenges.
    Let me thank, at the onset, whoever brought this World War 
I era Army poster here to the hearing, because it reminds me of 
the fact that my own grandfather was gassed by the Germans on a 
battlefield in France during World War I.
    I am told--I don't know for sure whether it was because of 
a defective gas mask or whether he even had a gas mask, but I 
am told that he ultimately died from residual effects of this 
gas.
    This is a vital issue, and I sincerely hope that the audits 
my office has conducted in this area meaningfully assist this 
committee, the Congress, and the warfighters in improving our 
readiness.
    The Department has a very comprehensive program to provide 
world class chemical and biological defense capabilities. These 
capabilities allow the Armed Forces of the United States to 
survive and successfully complete their operational missions 
across the spectrum of conflicts.
    Our Armed Forces must be prepared to execute their missions 
in all types of environments, including those that are 
chemically and biologically contaminated. The Department must 
maintain an active, viable chemical and biological defense 
program in order to protect its forces.
    In his annual report to the President and to Congress, the 
Secretary of Defense stated that, ``the proliferation of NBC 
technology, materiel and expertise has provided potential 
adversaries with the means to challenge directly the safety and 
security of the United States and its allies and friends.''
    As a result of various reviews, my office has made efforts 
to address the availability and serviceability of the chemical 
and biological defense materiel issued to the Armed Forces. 
Since the last appearance before this subcommittee in June 
2000, the Office of the Inspector General has continued its 
efforts to ensure that the chemical and biological defense 
equipment issued to the Armed Forces has been adequately 
maintained and stored and that all personnel requiring chemical 
and biological defense equipment have it and are properly 
trained to use it.
    Two audits we have conducted address issues your invitation 
letter specifically requested me to discuss, Mr. Chairman. 
Because the results of the two audits are classified I will 
discuss them in closed session.
    Since February 2000, we have visited 287 units in 31 
States, one U.S. territory and nine countries under the command 
of two unified commands, eight active duty component commands, 
four reserve component commands and the Army and Air National 
Guard to review their management of chemical and biological 
defense resources.
    The results of our work are based on what we have seen in 
the military units most likely to encounter a chemical and 
biological attack. The problems that we identified in those 
unit visits can be corrected. The issues are not 
insurmountable. Solving the problem will require a concerted 
effort at all levels of command in each of the Services, and in 
the Office of the Secretary of Defense.
    Some commands such as the U.S. Naval Forces, Central 
Command, have established vigorous programs to protect 
personnel from chemical and biological weapons. Other 
organizations have less robust programs that need to be 
improved. I will discuss those programs in greater detail later 
in the closed session.
    Limited visibility of chemical and biological defense items 
as assets remains a problem at the installation or user level 
because of the lack of automated inventory tracking systems at 
that level. Each of the Services maintain their own inventory 
management tool. These tools are often augmented at the local 
installation level with other tools, usually locally developed 
or produced that provide a detailed view of the stocks of 
chemical and biological defense equipment.
    The tools are systems that should contain, at a minimum, 
information such as stock number, size, contract number, lot 
number, date of manufacture, date of expiration, date of 
inspection, the individual issued the item, and any service 
bulletins or recall notices.
    There should not be a need to develop inventory management 
tools at the installation level. For example, one Navy activity 
reported to us that they spent $15,000 to develop an Excel 
spreadsheet, while another Navy activity identified an 
expenditure of roughly $100,000 to develop and field their 
chemical and biological defense equipment inventory tool.
    Although these expenditures might seem small on an 
individual basis the fact that commanders identified a need to 
develop their own tools should highlight the need for a 
departmentwide standardized inventory tool.
    The Department has worked to standardize other issues 
related to chemical and biological defense, and it can do so 
here as well.
    Standardizing an automated inventory management tool would 
provide departmentwide benefits. This would not even require 
developing a new inventory tool, because some of the tools 
already in use could be adapted to the other services. For 
example, the mobility inventory and control accountability 
system currently used throughout the Air Force provides a level 
of detail that units in each of the Services have identified 
would aid them in managing their inventories.
    This system is used to maintain control of inventory and 
can be used to identify materials on hand that would have been 
flagged for inspection because of the service notices or 
product recalls, such as the one for defective overgarments.
    The system also assists in managing on-hand stocks with an 
identified shelf life by tracking lot numbers or dates of 
manufacture. The question then becomes one of who should be the 
one to enforce standardization. We believe the Office of the 
Deputy Assistant to the Secretary of Defense for Chemical and 
Biological Defense should provide the oversight departmentwide, 
and should be responsible for initiatives such as this.
    We have recommended that the Deputy Assistant develop and 
field a DOD standardized inventory management system for all 
items of chemical and biological defense. In response to our 
recommendation, the Deputy Assistant agreed that the Services 
and the Defense Logistics Agency have numerous inventory 
management systems with limited ability to share information.
    The Deputy Assistant pointed out the DOD has established a 
single focus point for gathering and disseminating data for the 
New Joint Service Lightweight Integrated Suit Technology 
ensembles, and that the Defense Logistics Agency is actively 
involved in replacing legacy systems with one that will 
interface with the Services' systems beginning in 2005.
    We have conveyed to the Deputy Assistant that 2005 is too 
long to wait. A standard inventory tool at the installation 
level for chemical and biological defense equipment is needed 
now for the units to effectively manage their equipment.
    The Army can enhance the preparedness of our forces 
relative to chemical and biological----
    Mr. Shays. You need to start thinking about wrapping up 
here.
    Mr. Schmitz. I am very close to my conclusions.
    Through an improved unit readiness reporting system, the 
Army attempted to provide better information on chemical and 
biological defense preparedness when they revised their 
readiness reporting instruction in November 2001. But 
additional improvements can still be made.
    As a result of our work with the Army National Guard and 
Army Reserve, we recommended the Army revise their instruction 
for reporting readiness and include reporting of chemical and 
biological defense materiel for all Army units. The Army agreed 
to our recommendation.
    Improved reporting of chemical and biological defense 
readiness will aid in creating a climate at all Army levels 
where training and equipping forces for chemical and biological 
defense receive higher levels of attention and resources. I 
will go into greater detail on the issue we identified in the 
units we visited in my testimony for the closed session.
    For this session, I would like to state that each of the 
Services has a comprehensive training program that they believe 
will prepare their personnel to survive and operate in a 
chemically and biologically contaminated environment.
    I believe that they have put in place the foundation on 
which programs can be built that will provide for the 
protection and survivability of their personnel.
    The Marine Corps and Air Force training were more robust 
than the Army and the Navy programs. Each of the Services 
ensures that all personnel receive chemical and biological 
defense training when they enter the service.
    Mr. Shays. I am sorry, I need to have you stop.
    Mr. Schmitz. That is fine.
    [The prepared statement of Mr. Schmitz follows:]
    [GRAPHIC] [TIFF OMITTED] T8612.008
    
    [GRAPHIC] [TIFF OMITTED] T8612.009
    
    [GRAPHIC] [TIFF OMITTED] T8612.010
    
    [GRAPHIC] [TIFF OMITTED] T8612.011
    
    [GRAPHIC] [TIFF OMITTED] T8612.012
    
    [GRAPHIC] [TIFF OMITTED] T8612.013
    
    [GRAPHIC] [TIFF OMITTED] T8612.014
    
    Mr. Shays. Let me just clarify for the purposes of our 
questioning before we get on to Mr. Decker. You didn't touch on 
a number of points that I think are even more significant than 
what you talked about, such as the risk factors and so on.
    When we start asking questions about your public document, 
are you going to be saying to us that some of that information 
will have to be behind closed doors?
    Mr. Schmitz. No. If it is in the public document----
    Mr. Shays. There are questions about analysis, if A and B 
equals something, and C equals B, I just want to make sure that 
we can sure pursue those points.
    Mr. Schmitz. That is precisely why I have two technical 
experts sitting on either side of me.
    Mr. Shays. Mr. Decker. I would love it if you could be a 
little more vivacious. This is going to be a long day. I need 
some variation in the voice, a little excitement. OK?
    Mr. Decker. I will try, Mr. Chairman.
    Mr. Shays. All right.
    Mr. Decker. Mr. Chairman, members of the subcommittee. I am 
joined today by Mr. Cawood, my expert Assistant Director on 
these issues. We are pleased to be here today to discuss the 
Department of Defense's continuing efforts to protect U.S. 
forces against chemical and biological attack.
    DOD believes that it is increasingly likely that an 
adversary will use a chemical or biological weapons against 
U.S. forces to degrade our super U.S. conventional warfare 
capabilities, placing service members' lives and effective 
military operations at risk.
    Currently more than 20 states or non-state groups either 
have or have an interest in acquiring chemical weapons, and 
approximately 12 countries are believed to have biological 
warfare programs. Terrorist groups are known to be interested 
in these weapons.
    Therefore, U.S. forces need to be properly trained and 
equipped to operate in a chemically and biologically 
contaminated environment. And, as we have reported, when the 
threat of chemical and biological weapons use occurred during 
the Gulf war, deploying U.S. forces encountered a wide array of 
problems, including unsuitable and inadequate supplies of 
protective equipment, poor training, and unsatisfactory 
chemical and biological detectors. During the past 7 years, at 
the request of Congress, especially this subcommittee, we have 
examined this important issue and produced over 30 reports and 
statements.
    While we found that DOD has made some improvements in 
equipment training and readiness reporting, we are continuing 
to have concerns in each of these areas. In 1996, we issued a 
major report that discussed the overall capability of the U.S. 
forces to fight and survive in a contaminated environment. We 
reported that DOD was slow in responding to lessons learned 
during the Gulf war of 1990/1991.
    Specifically, early deploying units lacked required 
equipment such as chemical detector paper, decontamination kits 
in sufficient quantities and protective equipment.
    Army and Marine Corps forces remained inadequately trained 
for effective chemical and biological defense. Joint exercises 
included little or no chemical and biological defense training. 
Armey medical units often lacked chemical and biological 
defense equipment and training. Research and development was 
slower than planned, and unit reporting on these issues and 
readiness was unsatisfactory.
    We concluded that these issues were persistent and if not 
addressed will likely result in needless casualties and 
degradation of U.S. warfighting capability. We noted that 
despite DOD's increased emphasis on chemical and biological 
defense, it continued to receive a lower priority than 
traditional mission tasks at all levels of command.
    Many field commanders told us that they accepted a level of 
chemical and biological defense unpreparedness as they tried to 
balance priorities and budgets.
    In 2000 we looked at this issue again, at the early 
deploying forces, and we saw a better picture. We reviewed 
three Army divisions, two Air Force fighter wings and one 
Marine Corps expeditionary force and found that most of these 
units had the required individual protective equipment 
necessary, and most detection decontamination equipment. This 
is a positive.
    Officials at the units, however, said that had they 
shortages, that the shortages would be filled from stocks held 
later for later deployers, were from war reserves, and had not 
determined whether this solution would satisfy their needs,Nor 
would it have an impact, a negative impact on the future 
deployment and our war reserves.
    Training continues to be a problem. 1996, the commanders 
were not integrating chemical and biological defense in the 
unit exercises, and the training was not realistic.
    For example, Marine Core commanders did not fully integrate 
chemical and biological defense in the unit exercises as 
required by Marine Corps policy because operating in the 
protective equipment is difficult, it is time consuming, it 
decreases the numbers of essential tasks that can be performed 
during an exercise, and limits the offensive capability during 
these operations.
    Officials stated that the chemical and biological defense 
training is still being adversely impacted by the shortage of 
specialists in these units. We also reported that DOD's 
monitoring of the chemical-biological defense readiness in our 
1996 report had improved. By 2000, based on our recommendation, 
the Joint Chiefs of Staff directed changes to the status of 
reports training systems, SORTS, that will require units to 
report more clearly on the quantity of chemical-biological 
equipment on hand and training readiness.
    However, we noted that the changes do not require that 
units report on the condition of the chemical gear; thus, the 
reports could indicate that the unit has the equipment, but it 
may not be serviceable.
    Sir, allow me to focus on a major issue of this hearing; 
that is the protective suits that--we have a chart we are going 
to put up. Individual protection is a critically important 
component to overall chemical and biological defense.
    This is the last line of defense for our service members. 
Like the DOD IG, we have concluded several recent reviews on 
this topic. If I may direct your attention to this chart, which 
is on my right, and also on page 10 of the prepared statement, 
it depicts the number in millions of older BDO suits, dark, and 
the newer joint service lightweight integrated suit technology, 
the JSLIST suits in white, from 2001 to 2007. The dotted lines 
represent different requirements.
    For instance, the horizontal dashed line is the number of 
suits required for two major theater wars, and the dashed line 
is for 150 percent of one major theater war. Although DOD seems 
to be moving from the 2 MTW to the 1\1/2\ MTW, suit shortages 
are projected to escalate in the next few years because the 
majority of the suits in the current inventory will end their 
shelf life and expire by 2007.
    And the new suits coming in, the JSLIST, are not entering 
the inventory quickly enough to cover the degrading older 
suits. As a result, in August 2002, DOD had procured about 1.5 
million JSLIST suits, which had been issued to the military 
services. This with the older suits equals about 4.5 million 
suits. This level is now barely sufficient to meet the new 
requirement of 150 percent of one major theater war.
    If the new suit funding and the production do not increase 
sufficiently to replace the expiring suits, the inventory will 
drop each year all of the way out to 2007.
    We have testified, and this was covered again by Mr. 
Kucinich earlier, about serious deficiencies in inventory 
management. DOD IG has done the same. The point that I would 
make here is that 250,000 suits that were defective are still 
unaccounted for. We have not seen evidence that they have been 
found.
    Over the last 7 years, we have highlighted a serious gap 
between the priority given chemical and biological defense and 
the actual implementation of the program. The Quadrennial 
Defense Reviews of 1997 and 2001 identified chem and bio 
defense as key priorities. Although the program overall is 
clearly improved, many of the problems in the previous report 
are still unresolved.
    Let me focus on the budget. DOD has requested almost $1.4 
billion for the chemical and biological defense program 2003. 
However, it should be noted $400 million of that is for the 
Office of Homeland Security bio defense efforts. Despite the 
emphasis placed on this program by the Quadrennial Defense 
Review and statements about the threat of weapons of mass 
destruction by senior officials, the program has consistently 
had difficulty competing against other service priorities, such 
as those associated with traditional mission tasks.
    Spending on the chem-bio defense program represents one-
third of 1 percent of the defense, the entire defense budget.
    In summary, DOD has made many improvements over the years 
to defend against and sustain operations in a chemical 
environment. These gains have been primarily in the areas of 
equipment, training and readiness reporting.
    DOD has concurred or partially concurred with 36 of our 37 
recommendations in our reports. DOD recognizes that management 
and organization of the program must improve and has recently 
proposed organization and other changes designed to address 
those shortcomings. However, a real gap exists between the 
priority and emphasis given chemical and biological defense by 
DOD and the actual implementation of the program.
    We are concerned that without leadership commitment of the 
Department to address long-term conditions we have identified, 
survival of our service members operating in a contaminated 
environment and the success of our operations are at risk. We 
would be pleased to answer any questions the committee may 
have.
    [The prepared statement of Mr. Decker follows:]
    [GRAPHIC] [TIFF OMITTED] T8612.015
    
    [GRAPHIC] [TIFF OMITTED] T8612.016
    
    [GRAPHIC] [TIFF OMITTED] T8612.017
    
    [GRAPHIC] [TIFF OMITTED] T8612.018
    
    [GRAPHIC] [TIFF OMITTED] T8612.019
    
    [GRAPHIC] [TIFF OMITTED] T8612.020
    
    [GRAPHIC] [TIFF OMITTED] T8612.021
    
    [GRAPHIC] [TIFF OMITTED] T8612.022
    
    [GRAPHIC] [TIFF OMITTED] T8612.023
    
    [GRAPHIC] [TIFF OMITTED] T8612.024
    
    [GRAPHIC] [TIFF OMITTED] T8612.025
    
    [GRAPHIC] [TIFF OMITTED] T8612.026
    
    [GRAPHIC] [TIFF OMITTED] T8612.027
    
    [GRAPHIC] [TIFF OMITTED] T8612.028
    
    [GRAPHIC] [TIFF OMITTED] T8612.029
    
    [GRAPHIC] [TIFF OMITTED] T8612.030
    
    [GRAPHIC] [TIFF OMITTED] T8612.031
    
    [GRAPHIC] [TIFF OMITTED] T8612.032
    
    Mr. Shays. Thank you. Before calling on Mr. Kucinich, I 
just mentioned to Mr. Kucinich that I just wanted to make a few 
points. We, after the Gulf war, which I supported, we had men 
and women who came back convinced that they were negatively 
impacted by their service to our country in the Gulf war and 
that they were ill.
    Eventually we identified about 70,000 men and women who 
came home ill, and I became chairman of the Human Resource 
Committee in 1995, where we had jurisdiction of the Department 
of Veterans Affairs. We began intense hearings, where Mr. 
Tierney and Mr. Kucinich also became involved during the course 
of the years that followed.
    I want to say on the record that when we talk about this 
issue, it is a very sensitive issue, not just in terms of 
national security, but it is sensitive to me because I have 
felt that we have never really, until recently, had honest 
answers from the Department of Defense.
    For instance, there were questions of whether our troops 
were exposed to chemical weapons. The Department of Defense 
would say they were not exposed to offensive chemical weapons. 
We never picked up the word, until we had a gentleman who came 
and testified before our committee and came with a video as 
they blew up Kamisiyah, and he had pictures of--videos of 
blowing up of Kamisiyah, but also some of the canisters of 
chemicals and the shelves of chemicals and the rockets that had 
chemicals in them which we blew up.
    We announced that we were going to have a hearing on 
Tuesday the week before, and DOD announced at 12 o'clock they 
were going to have a press conference at 4 o'clock in which 
they then had a press conference announcing our troops were 
exposed to defensive use of chemicals.
    Frankly, we didn't see much of a difference, but I guess 
offensive and defensive was the way that DOD was able to be 
technically correct in the answer to our questions. So it made 
us realize that we had to dig deeper. During the course of 
these hearings as well, we learned that some protective 
headgear, masks, did not meet the manufacturer's specs, they 
didn't--35 of one mask didn't and 45 of another, approximately 
45, were defective brand new in terms of meeting the level.
    It took us about 8 or 9 years to have that report 
declassified, and what was troubling to me was that I knew that 
our troops, during the course of this time, would potentially 
be engaged in other combat missions. I knew that there was a 
real debate in the DOD about whether these masks would really 
do the jobs that they required.
    Now, I understand that DOD was taking issue with the 
Inspector General. I think it was the Inspector General's 
report about the viability of these masks. But I just put on 
the record that every Member up here has to decide whether or 
not to send our troops to war, and we have to live with it.
    And for me it becomes particularly sensitive, because I was 
in the Peace Corps and a conscientious objector and wasn't in 
Vietnam and now I am being asked to decide whether people risk 
their lives. And I will say for the record, just so I can get 
past that point, I determined during the Gulf war that I had to 
know what our mission was, that I had to know what our strategy 
was, that I had to know that we would use all of the fire power 
necessary.
    I first had to know what our national interest was, what 
our mission, what our strategy, and then know that we would use 
whatever firepower was necessary to guarantee the success of 
our mission and also in the end know whether exit policy was 
total victory or whether it was something less, and that we 
would then leave.
    I merely mention this because this is a very sensitive 
issue, and my colleagues in the part of asking you questions 
are really trying to determine, I think, not just whether we 
should confront Saddam Hussein, but if we do, what are we 
asking our military personnel to do?
    And I will just say in conclusion that I hope and pray that 
if in fact there are some vulnerabilities to our troops, and 
they are still required to go in, that they at least are told 
their vulnerabilities, that they are at least told them. Maybe 
not the general public, maybe not the enemy, but at least our 
own people will have no illusions.
    I thank my colleagues for the opportunity to just make that 
point.
    Mr. Kucinich, you have the floor for 10 minutes. And then I 
will go to either one of my colleagues, then I will go, and 
then we will go back.
    Mr. Kucinich. You know, I think that the Chair is well 
taken in his prefatory remarks here. I want to express my 
appreciation for them. Because, for me, it gets to the issue 
of, you know, would the American people support action against 
Iraq which could put their sons and daughters in harm's way if 
they knew that there was a distinct possibility that their sons 
and daughters could go into combat with defective gear, with 
biological and chemical weapon suits that are supposed to 
protect them that don't work, that have holes in them, that 
have holes in the seams.
    I wonder if this isn't one of the reasons why the 
Department of Defense is classifying the information? And as we 
proceed here with the questions, Mr. Chairman, I want to say, 
as the ranking Democrat on this subcommittee that has oversight 
over national security, that I am very concerned about the 
reasons for classification of information relating to the 
safety of this protective gear and to the inability of the 
Department of Defense to determine where those quarter of a 
million, 250,000, defective suits happen to be.
    Now, Mr. Chairman, you probably are familiar that yesterday 
something remarkable happened at the Pentagon's briefing room. 
Because what they did was to--for years, the media covering the 
Pentagon has been asking to see footage of engagements in 
Iraq's Northern and Southern no-fly zones. For years these 
requests were denied.
    Well, Pentagon officials had said that showing such films 
would comprise intelligence, provide the enemy with valuable 
information about tactics and technology, worst of all endanger 
the pilots.
    Well, yesterday what happened? The Pentagon showed several 
of these films, engagements with Iraqi surface-to-air missiles 
and other anti-aircraft. Tapes were suddenly declassified. I am 
just wondering if we are not getting here into the politics of 
classification. There is another element here, too.
    Now I remember how proud this country was to see the 
Challenger lift off the pad, and then how horrified we were 
when it blew up. And then in the subsequent investigations I 
remember distinctly a discussion about concerns that were 
expressed in circles about these O-rings, about whether there 
was sufficient protection and whether the O-rings were ready 
for the launch.
    And we know what happened. So are we about to launch a war 
against Iraq where our troops are not protected? Now, and one 
final note before I get into the questions, Mr. Chairman. You 
know, if the Department of Defense is unwilling to be 
forthcoming on something so elementary as the safety of 
protective suits, suits that would protect our men and women, 
our sons and daughters, from a biological or chemical weapons 
attack, what other areas, what other areas are we not knowing 
about? Is this one of the reasons why some of our most esteemed 
generals are saying, don't go there, we are not ready?
    Mr. Schmitz, General Myers testified 2 weeks ago that the 
military is prepared to fight in a chemical and biological 
weapons environment, trained for it and ready to deal with it. 
I would like to ask you about that.
    Based on your investigations, are there specific military 
units that are essentially completely unprotected against a 
potential chemical or biological attack?
    Mr. Schmitz. I think my best answer, and I will defer to my 
technical experts here, because I have only been on the job for 
4 months and most of the audits occurred before I took office, 
but my best answer is that we have not concluded in our audit 
that there are any completely unprotected units.
    There is no such thing as complete protection in these type 
of issues. We have identified areas of improvement. But I guess 
the straight answer to your question is, no, I think is the way 
you phrase it. If you phrased it, are there any completely 
unprotected units?
    Mr. Kucinich. Are there any completely unprotected units?
    Mr. Schmitz. I don't believe we have identified any such.
    Mr. Kucinich. And did you find specific military units that 
do not currently have sufficient protective equipment to meet 
the minimum requirements established by the services to protect 
against a chemical or biological weapons attack?
    Mr. Schmitz. I think that question gets into the classified 
discussion. I'll be perfectly glad to discuss that in detail.
    Mr. Kucinich. Let me ask you again. I want to ask it again, 
just it case--you said you think it does, just in case you 
think it doesn't.
    Did you find specific military units that do not currently 
have sufficient protective equipment to meet even minimum 
requirements to protect against a chemical or biological 
attack?
    Mr. Schmitz. I think that question, with all respect, is 
better for the closed session.
    Mr. Kucinich. So you're saying it's classified and you 
can't discuss it?
    Mr. Schmitz. Yes, sir.
    Let me also just clarify one thing. The misuse of the 
classification system is a serious issue in my view. And I 
would like to just say on the record that I classified this 
report. And the allegation that the DOD is using the 
classification process--I mean, we go by the guidelines set by 
the DOD. This is a very, very serious issue about protecting 
the lives of our members of the Armed Forces. But if you----
    Mr. Kucinich. That's very interesting. So are you telling 
me that we should--are you ready to tell the American people 
that their sons and daughters who may go into combat are going 
to be perfectly safe with the biological and chemical weapons 
suits that they'll be wearing? Are you ready to say that?
    Mr. Schmitz. What I said is that----
    Mr. Kucinich. Can you answer that question, Mr. Schmitz?
    Mr. Schmitz. The answer is no, because there is no such 
thing as perfect safety in warfare.
    Mr. Kucinich. You gave a no answer to my question. I thank 
you for being honest.
    Mr. Shays. Can I just--the issue is sensitive. I do think a 
Member should be able to define what--define what no means; 
otherwise, we would have a distortion.
    Mr. Kucinich. If he wants to say what no means. We're in a 
city where no doesn't always mean no, and yes doesn't always 
mean yes. So what does your no mean?
    Mr. Schmitz. I'll defer to the closed session, and I'll be 
glad to get--be perfectly forthright and allow my technical 
experts to answer every single question you have, because I 
believe the American people are entitled to know. But I also 
take very, very seriously the proper utilization of 
classification. And if you have, Mr. Ranking--if you have an a 
serious allegation that somebody in the Department of Defense 
is misusing the classification process----
    Mr. Kucinich. Wait a minute.
    Mr. Chairman, this is inappropriate. I didn't make any 
allegations.
    I'm making statements based on your testimony and you just 
told me that you can't answer the question. And the chairman 
came back and said, we want to know what no means. You just 
told me and anybody watching that you can't say what no means--
--
    Mr. Shays. If the gentleman would--no, I don't think he was 
saying, if you had that impression, you wanted a yes or no 
answer. He was just qualifying his no answer just so we put it 
in perspective. That's all I'm saying.
    I would not want to be up where these gentleman are and 
have a no or yes answer. I would want to be able to say yes or 
no and be able to explain why.
    I'd also like to say, if I could, that there is so much 
information that is valuable and important on the record, I 
just want to make sure we don't lose the opportunity of getting 
what can be on the record on the record, besides also 
disclosing what can't be on the record.
    I'm not taking it from the gentleman's time. I want to say 
that I hope that we put on--as much information on the record 
as we can. And it's substantial.
    Mr. Kucinich. I might add, Mr. Chairman, and with the 
greatest respect for the Chair, they're in a difficult 
position?
    You're in a difficult position?
    If there's a single American serviceman or servicewoman who 
is out in the field with a defective suit, I think they're the 
ones who are in a difficult position. When you have a quarter 
million suits that haven't been located that are defective, 
they're the ones that could be in a difficult position.
    Mr. Schmitz, again, are there specific military units that 
currently do not meet minimum required levels of training to 
protect against a chemical or biological attack?
    Mr. Schmitz. Mr. Ranking, let me just clarify one thing. I 
didn't mean to provoke an argument. I was actually making an 
offer----
    Mr. Kucinich. There is no argument here. We're all hire for 
America.
    Mr. Schmitz. I agree 100 percent. I'm making an offer to 
you that if you have a specific allegation about the Department 
of Defense misusing the classification system, my office is 
empowered by statute to look into that as an allegation.
    I'm saying I would be glad to consider such an allegation 
and look into it. That was a sincere offer to you, Mr. 
Kucinich, to actually be of service.
    Mr. Kucinich. I take that as an effort--I appreciate your 
assertion of sincerity. I'm sincerely interested in finding out 
if there are any unsafe suits out there that are going to be 
worn by American servicemen and women.
    Mr. Schmitz. That is an issue I'd like to get into, any 
details you'd like to get into, in the classified session.
    Mr. Kucinich. See, this is wrong. I just want to say this.
    I really find this, Mr. Chairman--that this is wrong. That 
information that the American people need to know if their sons 
and daughters are going to be sent into battle with defective 
suits, that ought to be public knowledge. Should we find out 
after it happens?
    Mr. Schmitz. Let me say, and I believe this is proper to 
say in an open session, our studies, our audits, have found 
deficiencies. So the answer to your question generally is yes; 
the specifics are what I'm not prepared to get into in an open 
session because that essentially exposes vulnerabilities. 
That's exactly why we have classification.
    Mr. Kucinich. Mr. Chairman, I appreciate you giving me this 
opportunity to ask the questions. And it is a matter of record 
that we had a yes answer. And it's also a matter of record that 
information that is classified could bear on the safety of our 
men and women in the field.
    Mr. Shays. Let me say to all the panelists before calling 
on either Mr. Tierney--or I can go, if you're ready, Mr. 
Gilman, I could go with you, but I'd be happy to have you wait 
a little longer if you could wait.
    Mr. Gilman. I'd like to make a statement and one question.
    Mr. Shays. We'll allow that.
    It's going to be a long day today. I want to assure all our 
witnesses that I don't want you to leave that table until you 
make sure the record is clear as to your position, and you will 
be allowed to make sure that whatever you need to put on the 
record will be put on the record. I do not want this open 
hearing to not put on as much information as possible.
    So make notes of things that need to be classified, so 
defined and so on. I'd be happy to go to you, Mr. Gilman.
    Mr. Gilman. Thank you, Mr. Chairman.
    Mr. Shays. You're not going to be asking questions, right, 
yet?
    Mr. Gilman. I have one question.
    Mr. Shays. You have 10 minutes. Statement and question. You 
have 10 minutes.
    Mr. Gilman. Thank you, Mr. Chairman.
    Thank you, Mr. Chairman, for conducting this important 
hearing. And you've been conducting a number of important 
hearings with regard to our readiness and our ability to 
respond to any crisis out there.
    This is a timely and appropriate hearing to examine the 
status of our Department of Defense chemical and biological 
defense programs. It takes on special importance, given that it 
now appears inevitable that we're going to undertake some major 
military operations against Iraq in the near future.
    The last time American forces went into action against Iraq 
during the Gulf war in 1991, they faced a battlefield that 
could be best described as a toxic soup of chemical and 
biological hazards. And while Saddam did not actively use 
chemical or biological agents against coalition forces, such 
weapons that were forward deployed in a number of cases were 
destroyed by allied bombardment.
    It was several years later that our subcommittee learned 
that through the subsequent destruction of these chemical 
stockpiles that thousands of coalition troops were exposed to 
low levels of resident agents. Moreover, when combined with the 
haphazard and disorganized vaccine effort, smoke from the 
numerous oil well fires, from natural biological hazards 
indigenous to the region and exposure to depleted uranium, it 
was no wonder that thousands of soldiers later found themselves 
suffering from various ailments and conditions related to that 
kind of exposure. I hope we've learned from that lesson.
    My concern today is the hazards facing our service members 
should we force a confrontation with Saddam Hussein and his 
military. Facing removal from power, I fear he will have every 
incentive to use all of the various chemical and biological 
weapons at his disposal. While respectful of the effort made by 
the U.N. weapons inspectors, I'm in no way confident that they 
were able to account for all of Saddam's weapons before they 
were forced out in 1998.
    Moreover, Saddam Hussein has clearly been busy in building 
his weapon armaments in the past 4 years. If this 
administration decides to commit the necessary force and 
treasure to overthrow the present Government of Iraq, a 
decision that I would fully support, then it needs to ensure 
that those forces are prepared to face any contingency, 
including a desperate enemy with a history that's deployed 
chemical weapons in military operations in the past.
    I look forward to hearing additional testimony from our 
witnesses with regard to these concerns, but let me pose a 
question for the panel.
    What has the Department of Defense done to improve the 
availability, the durability and suitability of CB defense 
equipment since the 1991 Gulf war?
    And, second, what has the Department of Defense done to 
ensure deployed U.S. forces will not experience shortages in CB 
defense equipment?
    Mr. Schmitz, panel?
    Mr. Schmitz. Yes. Thank you, Mr. Gilman.
    Our audits indicate that each of the services has, in fact, 
initiated a number of measures both in inventory control and 
training in order to improve and to learn on the lessons of the 
Gulf war.
    Mr. Gilman. Is that your full answer?
    Mr. Schmitz. Well, I have much more detail in both my 
classified and unclassified reports.
    Mr. Gilman. Tell us some more about your unclassified.
    Mr. Schmitz. If I could, Mr. Gilman, I'd like to defer to 
the person that actually wrote the report.
    Mr. Gilman. That may be----
    Mr. Shays. There's no problem if you ever need one of the 
experts to respond. You just do it.
    Mr. Schmitz. OK. Mr. Bloomer, I'd like him to actually 
address the question directly. He's in a much better position.
    Mr. Bloomer. We found that----
    Mr. Shays. Mr. Bloomer, we want that mic a little closer to 
you. Let me just say we want the people who know the answer to 
the question to answer the question, whoever that is.
    Mr. Bloomer. We found that the services had begun 
implementing more vigorous training programs. There are still 
improvements that can be made, don't misunderstand me, but 
where we stand today versus where we stood at the conclusion of 
the Gulf war is much better in terms of the training programs 
that are in existence right now.
    In terms of equipment availability, they've made great 
strides in providing equipment.
    But, again, there are improvements that can still be made.
    Mr. Gilman. What kind of improvements are still needed?
    Mr. Bloomer. I would defer to the afternoon session, if I 
may, for the classified discussion.
    Mr. Gilman. Are you satisfied that the improvements that 
are being made are significant? Or are there some pretty 
serious needs to be fulfilled?
    Mr. Bloomer. They've made significant improvements, but 
there are still some needs that need to be fulfilled.
    Mr. Gilman. When did they start making the improvements 
that you're referring to?
    Mr. Bloomer. Well, we've been working in this area since 
1994, and we've seen them progress each year as we've gone 
through the process. So it's been a continuous improvement.
    Mr. Gilman. So working since 1994, you still find that 
there are major improvements that have to be made; is that 
correct?
    Mr. Bloomer. Yes.
    Mr. Gilman. Does anyone else want to comment on my 
question?
    Mr. Steensma. Let me say this, sir. One of the things that 
we would--is needed, and it's needed not for just this area, 
but almost every area in DOD is, they need constant emphasis at 
all levels of command, from the lowest level up to the 
Secretary of Defense, that this is going to be the highest 
priority. And it's hard for every commander--he has different 
priorities he has to address every day, he has different levels 
of funding that he has available, and he makes tradeoffs every 
day.
    But those commanders we've seen that have taken this on, 
such as the naval commander in Bahrain there, gave it the 
highest level of emphasis. That's where we've seen the greatest 
improvements.
    Mr. Gilman. What about other commanders besides the 
commander at Bahrain? Are they fulfilling your needs?
    Mr. Steensma. The Central Commander, he wrote us a letter; 
Mr. Schmitz mentions in his testimony, he is tremendously 
interested in this area. He thanked us for the work we've done. 
He put heavy emphasis on his commanders to improve any areas we 
found weaknesses in, and to address it at, I believe he also 
said, at all levels of command.
    Mr. Gilman. So were other commanders following that kind of 
advice? Are other commanders following that?
    Or you pointed out two commanders. What about throughout 
the armed services?
    Mr. Bloomer. I would say that throughout the armed services 
we've seen it receive increased emphasis again as we've gone 
through the process. Is it at the level that we believe it 
should be? There's still room for improvement. But that has 
increased emphasis.
    Mr. Gilman. Does that indicate that there are commanders 
who are not fulfilling that request? Would any of the panelists 
answer that.
    Mr. Schmitz. Let me just say this is a leadership issue. We 
have identified--and frankly, this subcommittee's hearings have 
helped us in bringing this issue to the attention of the 
leadership in the Pentagon from the very top to the field 
commanders. It is one of those issues that you just 
continuously have to remind people of because, as Mr. Steensma 
said, the commanders are always balancing priorities.
    So we are very--we in the IG business are very appreciative 
to this subcommittee for holding this hearing.
    Mr. Gilman. I appreciate your support of our hearings, but 
I'm asking you a question.
    Are there other field commanders out there who are not 
abiding by the request of the Department?
    Mr. Schmitz. I would best describe it, Mr. Gilman, as a 
sliding scale. We have identified two very stellar commanders 
who have taken our----
    Mr. Gilman. I've heard about that. What about the other 
commanders?
    Mr. Schmitz. There are a myriad of them. We've looked at 
hundreds.
    Mr. Gilman. I realize you've got many out there. Are they 
abiding by the request of the Department to fulfill their 
preparedness in this--in the event of any chemical or 
biological attack?
    Mr. Schmitz. As we said, many have room for improvement. I 
mean, there are some that have done it to better degrees than 
others. We are continuously focusing the attention of the 
leadership of the Pentagon on this subject. We're grateful 
because this hearing helps us do that.
    Mr. Gilman. That's why we're here. That's why I'm pressing 
these questions upon you, so that we can find out where the 
lack of attention is being expressed.
    What about the shortages in CB defense equipment?
    Mr. Schmitz. There is a--there's actually a good 
explanation for that.
    Mr. Gilman. What is that explanation?
    Mr. Schmitz. It has to do with shelf life and not wanting 
to have everything expire at once.
    But I will defer again to Mr. Bloomer as the technical 
expert, let him explain that to you.
    Mr. Gilman. Mr. Bloomer, what about the shortages in CB 
defense equipment?
    Mr. Bloomer. If I can talk about the new overgarments.
    Mr. Gilman. First, answer my question. Is there a shortage 
of CB defense equipment at the present time?
    Mr. Bloomer. Yes, we have found some items are in shortage.
    Mr. Gilman. What items?
    Mr. Bloomer. If I may, I'd like to answer that this 
afternoon.
    Mr. Gilman. All right. But there are important items of 
equipment that are in shortage at the present time?
    Mr. Bloomer. There are items that are in shortage.
    Mr. Gilman. What's being done to correct that?
    Mr. Bloomer. Services have implemented a number of programs 
to find, for example, additional vendors who can produce the 
items. We're trying to cycle the procurement of items, so they 
don't all expire at once, so we don't have shortages.
    Mr. Gilman. Are those shortages being made up at the 
present time?
    Mr. Bloomer. The services are working to resolve those 
shortages.
    Mr. Gilman. But there are still shortages?
    Mr. Bloomer. You--yes.
    Mr. Gilman. Thank you.
    Thank you, Mr. Chairman.
    Mr. Shays. Thank you.
    I would just like to ask if the very back row in this room, 
if people are hear how the questions are being answered. I'm 
seeing nodding of heads.
    Mr. Tierney, thank you for letting Mr. Gilman run over his 
10 minutes.
    Mr. Tierney. Thank you, Mr. Chairman. I think we're all 
looking to get some answers here, so I don't have any 
difficulty with the time constraints on that.
    Mr. Schmitz, if I might, during your written testimony you 
indicated that you wanted to state that each of the services 
has a comprehensive training program that they believe--they 
believe will prepare their personnel to survive and operate in 
a chemically or biologically contaminated environment.
    I believe--that's you speaking--you believe that they have 
put in place the foundation on which programs can be built that 
will provide for the protection and survivability of their 
personnel.
    I'm led to believe by the phraseology there that they are 
not yet beyond the foundational level, and there's much more 
work to be done in order for them to put in place some system 
to protect the survivability of their personnel. Am I right; 
they're a long way between the origins of a plan and the 
implementation?
    Mr. Schmitz. As I mentioned, some of the services are more 
along that track.
    Mr. Tierney. The Marine Corps and Air Force are further 
along than the Army and the Navy, according to your report. 
That's the next sentence here. How much further along?
    Mr. Schmitz. I'm going to defer to Dave Steensma.
    Mr. Steensma. They all have good programs. The Air Force 
and Marine Corps, they have definitely put a lot more emphasis 
onto it from the leadership level all the way down. And we've 
seen greater strengths to the way they've trained their people, 
both individually and selectively.
    And I think the General Accounting Office mentioned, 
there's challenges doing the collective training which is 
trying to see how well somebody can do their job in a chemical 
environment--because the suits are hot, it restricts their 
movements, and things like that.
    But I'll conclude my answer with that, sir.
    Mr. Tierney. Does it concern you--it ought to concern you--
that during the recent war games the Millennium Challenge 2002 
they didn't get into the kind of exercises that deal with 
chemical or biological systems of usage?
    Mr. Steensma. That would be of concern. I'm not familiar 
with those games, sir.
    Mr. Tierney. Well, this report--and I haven't heard it 
contradicted yet--that we recently had those games, and as part 
of them, they withdrew from allowing the so-called enemy or the 
mock enemy forces from using chemical or biological agents on 
that.
    Should that concern us that we're not even prepared to go 
through the exercises in an atmosphere that will simulate one 
that we might find in Iraq?
    Mr. Steensma. That would be of concern to me, sir. I do not 
know why they didn't use the chemical and biological--attempt 
to use it during the exercise to see what happened in the 
scenarios they were running.
    Mr. Tierney. Mr. Decker, what do you say to that?
    Mr. Decker. Sir, I've not evaluated the Millennium 2002 in 
detail. But it would seem to be--if that is, in fact, true, 
that they did not employ chemical/biological as part of that 
war game--consistent with the comments that we heard from the 
field in our previous reports, that this is a very difficult 
issue to incorporate into your training.
    It's time-consuming, you have to break out gear and use it, 
which means you may violate the integrity of the gear, putting 
it back into storage. This is something commanders do not 
typically like to do in the field.
    Mr. Tierney. Well, can either--either of you gentlemen 
address the idea of how much we are lacking in the training of 
our troops to deal with this kind of a confrontation? Where are 
we on that?
    I know, Mr. Schmitz, you indicated that you thought they'd 
be there by 2005 or something on that basis. I think we may be 
there a lot sooner than that in reality. So where are we in 
terms of training our troops?
    Mr. Schmitz. I think it's fair to say that the senior-most 
levels of the Pentagon are focusing each of the services to 
accelerate their training so that we are prepared and ready, as 
best we can be, earlier than when my office got involved. We 
have made recommendations that they get, you know, their 
programs in place earlier, and we believe they're addressing 
and accepting our recommendations.
    Mr. Tierney. Right. So my question to you is, when are--are 
they early enough? If this President decides to unilaterally 
and preemptively go in within the next matter of months, we're 
going to all of a sudden have all the training you need, where 
you left off at your report to where we need to be?
    Mr. Schmitz. Let me say our reports are a snapshot in 
history. Based on our reports and the work that went into our 
reports, I don't have any real reason to doubt what General 
Myers said on the 1st, with the caveat that our troops are 
never going to be 100 percent protected or protectable from 
these type of threats.
    Mr. Tierney. How about trained?
    I'm very concerned that you left some shortages. Here you 
indicate that they've got the foundation on which programs can 
be built, but they're a long distance from actually getting it 
completed to the level of protection and survivability of the 
personnel. And then we find out they have Millennium Challenge 
2002 games recently and don't even explore that area.
    Mr. Schmitz. Let me just say this. We didn't look at 
Millennium Challenge 2002, but I know that we've had a training 
exercise in the Pentagon involving chemical/biological attacks 
and--I know that.
    Mr. Tierney. But it brings me back to Mr. Decker's point 
that they're telling us, during those training exercises, they 
have great difficulties doing what they want to do in the 
training. They don't want to break the integrity of the units, 
which I understand.
    So can the two of you together give us some idea of where 
we're at in terms of their having some training exercises, 
which you label as the foundation, but they're not apparently 
having them to the extent that everybody is testifying is 
comfortable, because they have a lot of reservations and a lot 
of things that impede their full-blown training exercises.
    Mr. Decker.
    Mr. Decker. I would say that we're better prepared today 
than we were in 1990-91 against a chemical/biological attack. 
However, based on the interviews that we did with the units in 
the field, I am not convinced that the realism and the degree 
of training that has to happen at the unit level all the way up 
through higher echelons takes place on a regular basis so that, 
if we go into war, it will be very easy to do.
    Mr. Tierney. What about the requirements of the standard 
set by each of the military forces themselves in terms of 
training? Have they even met those?
    Mr. Decker. We reported several years ago that was not the 
case.
    Mr. Tierney. OK.
    Now, Mr. Decker, in your testimony, both written and oral, 
you talked at least in passing about those 250,000 suits, 
protective gear. It's still a situation where you say we can 
cannot locate where those 250,000 defective pieces are; is that 
accurate?
    Mr. Decker. I won't speak for the Department of Defense, 
but we have received no evidence that they have found, clearly 
found and identified, located, destroyed those 250,000 suits.
    Mr. Tierney. So is it possible that some of them are, in 
fact, in line to be deployed where we might need them next?
    Mr. Decker. I think that's possible.
    Mr. Tierney. Do you know how many of those 250,000; could 
be zero, could be 250,000?
    Mr. Decker. Yes, sir.
    Mr. Tierney. You talked in your report about the process 
for assessing risk in the services, and you said that it was 
flawed. Would you go into that in a little bit more detail for 
us?
    How are these services assessing the risk that's involved 
here, and why aren't we getting a clearer picture?
    Mr. Decker. Sir, allow me to refer to one of the diagrams 
in the report. Our record for--statement for the record, it 
would be page--individual pieces of gear, page 8. When we 
identified this risk issue, you have to assume that when a 
serviceman goes into combat in a contaminated environment, he's 
going to need a complete ensemble to be able to be safe.
    Mr. Tierney. You mean the mask?
    Mr. Decker. Mask, overgarment, trousers, and boots 
primarily.
    What we noticed in the Department of Defense annual report 
to Congress is that they were reporting at relatively low risk, 
that there were adequate supplies in the inventory of the 
individual items. But when we looked at those items and where 
they were in what services it was clear, if you look at page 8, 
that some services had a huge inventory of a particular item 
and not of another item; and that if you tried to do the 
ensemble issue, you'd start realizing that many of these areas 
become higher risk.
    So we recommended to the Department of Defense, really you 
should go back and look at this process, this methodology. If 
you want to assess accurately what the risk is to your 
servicemen, meaning, will every serviceman and woman have a 
complete set of gear, you need to relook at how you calculate 
that. And initially there was resistance, but after some 
discussions, they have accepted that methodology.
    Mr. Tierney. And what more would have to be done to make 
sure that each man or woman has the full, entire ensemble, that 
the ensemble was, in fact, in good shape?
    Mr. Decker. There's actually two issues, sir--
serviceability, but also size. You know, you can use a garment 
that's one size too large, but one size too small probably is 
not going to work on the battlefield.
    And the issue would be the inventory management system 
which--a hearing before this committee in June identified how 
horrific that process is, that there is not one integrated 
system throughout DOD to know where things are, so that the 
right gear gets to the right people at the right time. It does 
not happen. So you may find in one unit all extra larges, and 
you may find in another unit no trousers, and you may find 
masks of different sizes, perhaps not regularly available to 
fit all of the members of the right size.
    I mean, that is an issue.
    Mr. Tierney. Mr. Chairman, might I have two more questions 
to followup on this?
    Mr. Decker, you had a chart up there a little while earlier 
where you were showing the number, the amount of gear that was 
coming out of service, being retired, wasn't quite being kept 
up to with the amount of gear that was coming on line.
    Mr. Decker. Correct.
    Mr. Tierney. Are we remedying that situation?
    Mr. Shays. Could someone put that up.
    Mr. Tierney. Thank you very much. Now, you indicated it 
would be 2 major theaters and 1\1/2\ major theaters. I assume 
that the line between 4 and 5 is where it would be for one 
major conflict; am I right?
    Mr. Decker. Actually, the Pentagon uses a 1.5 requirement.
    Mr. Tierney. But that's in the 6, right, the No. 6 on the 
chart?
    Mr. Decker. No, sir that would be a 2. Two major theater 
wars would be at the 6; that's a solid dash line. At the 4.5 
would be dash dot; that would be slightly more than one theater 
war requirement, but less than two, 1.5.
    Mr. Tierney. OK.
    Mr. Decker. That's where the migration is and that's based 
upon, I assume some, you know, derivation of a new 
requirement--instead of two wars, fight one war, but then have 
a cushion of 0.5.
    What we're showing there, though, is exactly what you said, 
sir; the old suits are coming down quicker than the new suits 
are coming in. We have no information at this time that DOD is 
going to remedy that with increased funding and additional suit 
procurement so that you don't have this train wreck in the next 
5 years.
    Mr. Tierney. Let me ask each of you gentlemen, how long--if 
we expedited all the training that was necessary and put in 
place all of the inventory systems that were necessary and 
procured all of the equipment, protective gear, etc., that was 
necessary, how long would it be before we should be comfortable 
that our men and women sent into a conflict where biological 
and chemical agents were used would be reasonably safe, or as 
safe as possible under those conditions?
    Mr. Schmitz. Would they at least have the equipment they 
should have?
    Mr. Tierney. Exactly.
    Mr. Schmitz. That's a good question.
    Mr. Tierney. It deserves a good answer.
    Mr. Schmitz. I'll try to give my best answer, sir.
    I think it's fair to say that generally the units that are 
currently in position, the most likely ones to be sent into 
harm's way, are the best trained and best equipped right now.
    Mr. Tierney. How many numbers are we talking about there?
    Mr. Schmitz. You know, we didn't look at every unit. We 
didn't--our audit method is not to look at every single unit.
    Mr. Tierney. The ones you looked at that are in that 
category are, in your estimate, ready?
    Mr. Schmitz. What percentage or--what percentage?
    Mr. Tierney. I was trying to get to the point of--I'll let 
you finish your answer rather than take you off track. Go 
ahead.
    Mr. Schmitz. I'm going to defer to the people that actually 
did the audit here.
    Mr. Steensma. I think I know we answered that question 
specifically in the classified session, sir.
    Mr. Tierney. It's general enough that I would think the 
American public would be able to get that answer.
    Mr. Steensma. I would have to go back to what Mr. Schmitz 
said, that overseas we found a lot greater attention to the 
training, the equipage of the troops and so on.
    Mr. Tierney. And? How long would it take for us to assure 
that all of the men and women that might be put into a conflict 
of the nature that we're anticipating would be fully protected 
and fully trained?
    Mr. Steensma. I don't think I could answer that, sir. I 
would have to defer to the Department, because they're the ones 
who put priorities on equipping things, buying things and 
training people. So I don't think I could give a specific date.
    Mr. Tierney. But it's clear we're not there at the moment; 
is that correct?
    Mr. Schmitz. Let me answer that question. I think--that was 
the----
    Mr. Tierney. The expert no longer wants to answer the 
question.
    Mr. Schmitz. I'll let Mr. Steensma say what he wants to 
say. That was exactly--the premise of your question is, we're 
not currently ready?
    Mr. Tierney. Are we currently ready is the premise of the 
question. In your estimation, Mr. Schmitz?
    Mr. Schmitz. We're never going to be perfectly ready, OK?
    Mr. Tierney. I understand that. My question is, are we 
ready, understanding we'll never be perfectly ready. You can't 
be in any----
    Mr. Schmitz. Could we be more ready now? Yes.
    Mr. Tierney. Do you have an estimate of how long it would 
take to be ready to the degree that you would feel comfortable?
    Mr. Schmitz. You know, there's an old military adage, if 
you wait for the perfect war, you will lose every battle.
    Mr. Tierney. I'm not talking about waiting for the perfect 
war. I don't think anybody expects the war to be perfect.
    One of the problems is, we know it isn't going to be to be. 
We know there are all sorts of unforeseen consequences. But the 
ones we can foresee, such as the use of chemical and biological 
agents against our men and women, are they trained sufficiently 
and are they ready in terms of preparedness of whatever 
protective gear they might have at this moment, or should we 
have it in better shape?
    Mr. Schmitz. But you're asking, with all respect, an 
operational question to an independent office that does audits 
and investigations, and that question is better addressed to 
the operational commanders.
    Mr. Tierney. OK.
    Mr. Schmitz. I mean, it essentially involves an operational 
weighing of risks against----
    Mr. Tierney. All right. I accept that. I wanted to ask you.
    Mr. Steensma, do you want to answer that with any more 
specificity?
    Mr. Steensma. No, I wouldn't, sir.
    Mr. Tierney. Mr. Decker.
    Mr. Decker. Mr. Tierney, I'm unable to quantify exactly 
when we would be ready. But in closed session, I will discuss 
two specific issues that shade my optimism.
    Mr. Tierney. That shape it or shade it?
    Mr. Decker. Shade.
    Mr. Tierney. S-H-A-D-E?
    Mr. Decker. Yes, sir, shade my optimism.
    Mr. Tierney. Thank you, Mr. Chairman.
    Mr. Shays. Ms. Watson, you have the floor for 10 minutes 
plus.
    Ms. Watson. Thank you so much, Mr. Chairman. I'd like to 
submit my opening statement for the record.
    Mr. Chairman, I think what we probably have is the wrong 
panel here. We have their testimony in writing. I've gone 
through their written testimony to the extent that it's 
accurate, I think that our questions are answered. And I'll 
just repeat very quickly some of the statements that caught my 
eye. ``We have continuing concerns in each of these areas in 
the supply of chemical protective clothing and the way it is 
associated is assessed.'' ``We believe that the risk of 
protective clothing shortages may increase dramatically from 
now through at least 2007.'' ``Serious problems still 
persist.'' And, ``We concluded that chemical and biological 
defense equipment training and medical problems were 
persisting, and if not addressed, were likely to result in 
needless casualties and a degradation of U.S. warfighting 
capabilities.'' ``The medical readiness of some units to 
conduct operations in a contaminated environment, therefore 
remains questionable.'' And, ``Military service members may not 
be able to avoid exposure to chemical and biological agents and 
has consequently provided U.S. forces with individual 
protective equipment.''
    And they go on to conclude, ``But the bottom line is, there 
are many needed improvements that still remain to be 
realized.'' ``The service members of our country may be at risk 
in a contaminated environment.'' These are your reports, and 
I'm just repeating for the public what you have said in 
conclusion.
    I would think, Mr. Chair, that we need to have the 
operational managers in here and find out what is really going 
on. I appreciate the testimony from these gentlemen, but I find 
the way they're answering these questions nonconclusive, and 
maybe they don't have the information we need.
    So I would suggest that we dispense with this hearing and 
wait to get into the classified hearing so that when I go back 
to my constituents, I can give them the truth.
    What is very, very bothersome to me is that we're rushing--
every single day we hear the administration saying, we need to 
rush into an attack on Iraq, for we know Saddam Hussein has 
biological weapons that he has not been afraid to use and has 
used them.
    Are we exposing our men and women at this point to 
contamination and, subsequently, their children knowing that we 
cannot protect them?
    Now, don't come back at me with perfection. I'm not asking 
about perfection; I'm asking about some risk assessment and are 
we ready.
    Apparently, you gentlemen cannot answer that question for 
me exactly. So my suggestion would be, let's not waste any more 
time. Let's get operational managers here, and let's go into 
the classified session, and I will take back the truth to my 
people.
    I am not going to support going blindly into warfare in an 
environment that can cause great bodily harm and our death not 
only to this generation, but to subsequent generations. And I 
don't need an answer; it's just a statement.
    Thank you.
    Mr. Shays. Thank you. I appreciate the gentlelady's 
comments.
    I think that you all, both the GAO, the Inspectors General 
are providing a tremendous opportunity for us to know at least 
what we can state on the public record and then the questions 
that we need to ask behind closed doors. We would not even be 
anywhere along as well as we are with the issue of protective 
gear had it not been for the work of your predecessors in the 
Inspector General's Office and the GAO. And I'll give you an 
example before I get into questions.
    But what I did when I met with the British and the French 
and the Israelis to discuss protective gear in the early 1990's 
they didn't want American equipment; they wanted their own or 
they wanted another country's.
    When I speak with them today, they want our equipment. So 
we know we have good equipment. We know--we certainly know it's 
better than what other countries have. And I say that with no 
reluctance. I think that is, in part, the work that this 
committee and you all have done to just keep pushing and 
pushing and pushing.
    But I also feel that both of you have--both the GAO and the 
Inspectors General have put on the record some very important 
information that says, we may be ready in certain instances and 
we may not be ready in other instances.
    I can't imagine, for instance, that we would be able to 
amass 700,000 troops and think that they would be protected. It 
tells me that given the type of warfare that we may encounter, 
which would be potentially chemical or biological, that it's 
going to have to be a different strategy, in part because of 
the limitations that we have with our equipment, but also in 
part because we're not going to give Saddam Hussein such a 
large and tempting target.
    But obviously we will also have some dialog with our second 
panel in open forum.
    Let me ask anyone on the panel, first, to be willing to 
give me a little bit of an education as you would define 
``readiness versus risk.'' I understand from the GAO that your 
primary focus would be on risk. Is that correct, Mr. Decker, 
your contribution to this panel?
    Mr. Decker. Yes, sir. I think in past reports we----
    Mr. Shays. When we look at risk, we're looking at 
availability, suitability, and durability, correct?
    Mr. Decker. Those would be some of the factors if you talk 
about gear.
    Mr. Shays. One of the contributions that you're making is 
that when we look at whether there's a high risk or a low risk, 
when we just take a certain part of the equipment and isolate 
it and not put it as part of the package, that we get a 
distorted view; is that correct?
    Mr. Decker. Yes, sir.
    Mr. Shays. But what I'm also understanding is that it's not 
like we add it all together, and we put it in one chain and we 
say, whatever is the weakest link is potentially--if something 
is a high risk, then everything is--let me just say a risk, not 
a high risk. It's possible you could put together one part that 
is a moderate risk and another part that is a risk, and that 
can add up to be high risk, collectively?
    Mr. Decker. Yes, sir. I'll give you an example.
    If you talk about a mask and outer garment, boots, and 
gloves, if you had no gloves, you would be at high risk even 
though you have four out of the five components.
    Mr. Shays. Right.
    Mr. Decker. So all of the other ones would be adequately 
supplied, but if you didn't have gloves, you're still at risk, 
high risk.
    Mr. Shays. I'm getting at something a little more subtle. 
That, to me, is putting it all in a row. You've got a weak 
link, you don't have the gloves and the rest is meaningless.
    But it's my information that, in a sense, it's almost like 
four chains down, and maybe if you--if one is pretty 
vulnerable, the other three chains can pull you up, but if the 
other one has a moderate risk or even is a moderate risk, the 
two together can add up to be something greater than either one 
of them individually. Is that correct?
    Mr. Decker. Yes, sir.
    Mr. Shays. And so your testimony before this committee is 
that the Department of Defense has accepted making sure we look 
at the full package as a risk and not isolate it. And so that's 
good news.
    But when was that decided?
    Mr. Decker. Sir, since the report that was released in 
September.
    Mr. Shays. So this a new process. So we have to go back to 
the drawing board, correct?
    Mr. Decker. Correct.
    Mr. Shays. We have to look at risk again as now under the 
definition and the process that you've defined, correct?
    Mr. Decker. Yes, sir.
    Mr. Shays. Do we have a sense, when that's going to be 
done?
    Mr. Decker. I think the next panel will be able to address 
that.
    Mr. Shays. We'll make sure we ask the next panel.
    In terms of readiness, someone speak to the concept of 
readiness. I happen to think that if you've got risks, you're 
not ready; so I'm mixing the two. You need to give me a little 
bit of a lesson here. Who wants to do it?
    I'm going to have you put the mic nice and close. Now, is 
the smile of frustration that I may not get it, or that you're 
not sure you'll be able to explain it?
    Mr. Bloomer. I'll attempt.
    Mr. Shays. If you would put the mic a little closer.
    This is my understanding of--I am just trying to appreciate 
the concept of readiness. And if you need a little more time to 
think of your answer, let me just go to another question.
    But before I leave this panel, I want you all to define the 
concept of readiness to me. I'm sure the military will. But I'd 
like to have some confidence that you can define it.
    Do you want to answer the question?
    Mr. Bloomer. Yeah.
    I would say that, in attempting to define readiness, it 
would go to the core of, is the unit or force able to conduct 
its mission as it was intended and planned to be done? Is it in 
alignment with how they envision executing their plan?
    Now, a lot of factors go into that. Do you have enough 
people of the right skill and are they trained?
    Mr. Shays. Connect it as it relates to the whole issue of 
chemical and biological warfare.
    Mr. Bloomer. Another element that would go into it is 
equipment level. Do have you sufficient quantities of equipment 
to conduct your mission in any kind of environment, be it 
chemical or biological or pristine environment?
    Mr. Shays. It would go to the issue, for instance, if 
you're properly trained and so on?
    Mr. Bloomer. Yes.
    Mr. Shays. I felt that the Inspector General was speaking 
more to the issue of readiness, as opposed to the issue of 
risk. In other words, you could have all your equipment perform 
well--it's available, it's--the suitability is fine, the 
durability is good--but if you don't have enough of it, you're 
not ready, correct?
    Mr. Bloomer. I would agree. Yes.
    Mr. Shays. If you haven't been properly trained, you're not 
ready, correct?
    Mr. Bloomer. Or as ready as you could be.
    Mr. Shays. Right.
    If you don't know how to put it on, the equipment that may 
work very well, if improperly put on, is not going to work, so 
you are therefore not ready, correct?
    Mr. Bloomer. Correct.
    Mr. Shays. If--when we look at chemical/biological defense, 
we want to look at contamination avoidance. In other words, if 
we don't have to go into the area, we want to be able to--so we 
have to--we might want to avoid it, we need to detect it, we 
need to identify it, and we need to locate it, correct?
    Mr. Bloomer. That's correct.
    Mr. Shays. In terms of protection, we are concerned about 
protecting not just the individual, but maybe a facility like a 
hospital. And so there's more than just chemical protection 
dealing with a mask and a suit, but also to make sure that we 
can secure an area so, for instance, nurses and doctors can 
work without having to wear masks; is that correct?
    Mr. Bloomer. Yes.
    Mr. Shays. And in a decontamination setting we need to be 
able to decontaminate equipment that has been exposed to 
chemicals or biological agents, and in some cases, the people 
that have been exposed as well; is that correct?
    Mr. Bloomer. Yes.
    Mr. Shays. So these are very--these are a lot of 
significant efforts here.
    In other words, if you don't have the detection equipment, 
you may have to force yourself to wear equipment that will 
inhibit your mission. And it would be a lot easier to know if 
could you detect it before you had to put it on; is that 
correct?
    Mr. Bloomer. Yes, it would be.
    Mr. Shays. OK.
    Let me just go to the DOD--basically, the IG has talked 
about the Defense Logistics Agency, and you believe that 
250,000 unaccounted suits that are not properly--are defective 
were issued, worn and disposed of, correct?
    Mr. Schmitz. Yes, sir.
    Mr. Shays. The question is, what is the task required to 
know where--in other words, right now, it seems to me, we have 
to assume that the 250--we're being asked to assume that the 
250 is no longer in the system, that it was--we used it for 
training and we've disposed of it.
    Tell me how we can get an answer to that question.
    And if we can't get an answer to the question, do we have 
to make the assumption that somewhere between zero and 250 
suits are out in on the loose and that it's kind of like what I 
would call Russian roulette, you've got one bullet in the 
barrel and you know you just have to hope that when you pull 
the trigger, that bullet isn't the one--the bullet isn't in the 
chamber when you pull the trigger.
    Is it that kind of problem, or is there a logical way to 
get at and be assured that there is no defective equipment in 
the system?
    Mr. Schmitz. Let me just say this: This is an age-old 
problem and inspectors general have been looking at this 
problem since the Revolutionary War. You know----
    Mr. Kucinich. Apparently they haven't solved it.
    Mr. Schmitz. Some have been more successful than others.
    Mr. Shays. And the blame is not on the Inspector General 
and the GAO. The issue is, we have known for decades that even 
during World War I, the DOD had the opportunity to grow and to 
learn from its biological potential and chemical warfare 
opportunities, and we have not learned much. Reports that were 
done, we can't find. So we can go on and on.
    The fact that you're telling me this has been an age-old 
problem is significant in one sense, but meaningless in 
another, because we are in the day and age when chemical and 
biological weapons will be used. So there can be no excuse.
    What I'm asking is, you've heard the other Members ask the 
question about the 250,000 pieces of defective equipment. We 
can make an assumption that some are not in the system, but we 
can't make the assumption that all aren't in the system; is 
that correct?
    Mr. Schmitz. That's right. These are unaccounted for.
    Mr. Shays. OK. So we're being asked on good faith and on 
some logic that some of it would have been used. The question 
I'm asking is, in a sense--we are asking, have we identified 
all 250,000 of them? I think the answer is----
    Mr. Schmitz. No.
    Mr. Shays. No.
    Now the next question is, is there a way to identify them? 
And GAO, Mr. Decker, is there a way to identify? What would it 
take to identify?
    Mr. Decker. Based on our experience in trying to do an 
inventory review of protective equipment, we actually got into 
boxes to look at contract numbers, lot numbers, because there 
was no system device, nothing in the inventory management 
system that would provide us that accurate information, and 
nowhere in the system that would say exactly where these things 
were located.
    Mr. Shays. We don't know where they're located, but if we 
locate them, can we identify them as bad?
    Mr. Decker. Once have you a contract number and a lot 
number, and if it's identified as defective.
    Mr. Shays. I appreciate my colleagues. So if we don't do 
that, is it not a fact that we are then telling some members of 
our military force that they may have the shell in the chamber?
    Mr. Cawood. Sir, the military forces have attempted to 
locate these sites by a variety of means.
    Mr. Shays. I'm going to have you tell me that, but I'm just 
saying right now, if we haven't identified them and we don't 
seem to be having a program to identify every one of them, 
isn't it a fact that, in essence, some members of the military 
will be issued faulty equipment?
    Mr. Cawood. It is a possibility. It's not a certainty. 
Because we don't know whether some of those suits may have been 
used, for example, in training and that there's no means to 
account for which ones were used in that fashion.
    Mr. Shays. But now the IG's testimony was, as recently as 
April 2002, ``We continued to identify units that had not 
segregated those defective garments in their inventories.''
    The bottom line to my question: Is there a way--I'm not 
saying that it won't be expensive, I'm not saying it won't 
require a lot of work, but is there a way to identify every 
faulty piece of equipment that was part of that particular 
manufacturer's product?
    Mr. Decker. Sir, not without a lot of labor.
    Mr. Shays. But with labor, it would be possible?
    Mr. Decker. Obviously, if you sighted each suit, which 
would be extremely labor intensive, you could probably get to 
the bottom line.
    Mr. Shays. Does anyone from the Inspector General's Office 
disagree with that answer?
    Mr. Steensma. No, we agree with that. It would be labor 
intensive, because they would have to open numerous boxes, go 
through them with the lot numbers and identify them and pull 
them out.
    Mr. Shays. Numerous boxes would be?
    Mr. Steensma. I don't know how many hundreds of thousands 
are out there.
    Mr. Shays. Millions of boxes?
    Mr. Steensma. I don't know if it's millions.
    Mr. Shays. So the end result is, we are going to be asking 
some member of the military, unless they are issued totally new 
equipment, who go into Iraq--if that happens, we're going to be 
asking them to take a chance that, you know, one chamber has a 
bullet. When they pull the trigger you know, they're the--
they'll pay the negative result.
    So, I guess--let me go to----
    Mr. Tierney. Just to followup on that, I sense that we're 
going to be told in the next panel that--not to worry about 
this, that they've accounted for all the suits because they've 
had this training and they've worn them. Is that even remotely 
possible, that's the case?
    Mr. Decker. Sir, I think it's possible, but I would ask for 
the evidence.
    Mr. Tierney. Not verifiable?
    Mr. Decker. No, sir.
    Mr. Tierney. Thank you.
    Ms. Watson. May I followup? I had written a question to Mr. 
Kucinich that I'll ask now.
    I'm listening very carefully to you gentlemen. I appreciate 
you trying to give us frank answers. What I'm surmising from 
this to believe is that, no, we do not have protection for 
every single service personnel that would be required to go 
into an area that could be potentially deadly for them.
    As in the Vietnam War and the Gulf war, many of our 
military personnel came back and stated that they had health 
conditions that were strange and alien to them.
    Are you gentlemen recommending that as a result of going 
into Iraq, our veterans then be given full benefits and care 
for whatever might happen to them as a result of biological and 
chemical warfare? Would that be a recommendation from you, or 
would that be a recommendation from the operational managers, 
or whoever would be recommending?
    Because it seemed like there was some denial that Agent 
Orange had an effect on the veterans of Vietnam. It seems that 
veterans have struggled for decades to get some recognition of 
the problems they faced because of chemical and biological 
agents.
    Mr. Schmitz. I think it is a very important question, Ms. 
Watson.
    Ms. Watson. Whom should I ask?
    Mr. Schmitz. The Secretary of Veterans Affairs and the 
Secretary of Defense. And, hopefully, our audits and our 
reports will be useful in them reaching that decision.
    Ms. Watson. Thank you. I appreciate that, because I am 
trying to get to the right personnel to answer the questions. 
And listening to all of you, you have prepared these reports, 
but you can't give us the details, because apparently it is 
classified.
    So in trying to get to the truth and have some accuracy, I 
appreciate your response.
    Mr. Schmitz. Thank you.
    Mr. Burton. Let me--Mr. Gilman.
    Mr. Gilman. Thank you, Mr. Chairman.
    Mr. Shays. Then we will try to get to the next panel.
    Mr. Gilman. I am concerned. You are telling us that the 
defective equipment has not been located, but through 
additional manpower, we may be able to detect where that 
defective equipment is.
    If that is possible, then what are we doing to undertake 
that kind of a procedure?
    Mr. Steensma. I think you need to ask the next panel and 
the Defense Logistics Agency and the services what they are 
going to do. I know after the last hearing they put out several 
messages.
    They've tried to identify these in the past. The problem we 
run into when we are in the field is the word doesn't always 
get down to each individual unit, which could be in the United 
States or overseas here.
    And it would take a coordinated program by the Department's 
logistics people to try to get out and identify and make sure 
all of them are pulled.
    Mr. Gilman. Well, Mr. Steensma, why have some units not 
received the advisories regarding these defective pieces of 
equipment?
    Mr. Steensma. Don----
    Mr. Gilman. Mr. Bloomer.
    Mr. Bloomer. I guess the easiest way to explain it would be 
that not every unit has a person as part of the unit who is 
designated as a chemical and biological professional.
    Mr. Gilman. Wouldn't that be the responsibility of the 
commander of the unit?
    Mr. Bloomer. It would be. But a lot of the service notices 
and recall notices that come down, come down through the 
chemical and biological community. And it filters down that way 
or it filters down through supply channels. They don't always 
send them to commanders of the unit.
    Mr. Gilman. So what you are telling us, Mr. Bloomer, is 
that there may be some commander or some units that have not 
received advisories about this defective equipment; is that 
correct?
    Mr. Bloomer. Yes.
    Mr. Gilman. And, Mr. Schmitz, one of you on the panel has 
said, if we utilize more manpower, we can find out where the 
defective equipment is. Am I correct?
    Mr. Schmitz. Mr. Steensma said that. I agree.
    Mr. Gilman. Is that being employed, that method?
    Mr. Steensma. Not at this time. You would have to ask the 
next panel, because they are the ones that have the resources 
they could devote to an enterprise such as this.
    Mr. Gilman. So the defective equipment can be detected by 
utilizing more manpower in order to make certain that our 
troops, when they go out on the battlefield are not going to 
use defective equipment. Am I correct?
    Mr. Steensma. I would have to agree with that, sir.
    Mr. Gilman. Thank you.
    Thank you, Mr. Chairman.
    Mr. Shays. Thank you.
    Mr. Kucinich, you have more questions?
    Mr. Kucinich. To Mr. Decker: The--the Defense Logistics 
Agency has said that they believe the 250,000 unaccounted-for 
overgarments that were issued that are in question here, the 
ones that are defective, that they were worn and disposed of.
    Now, how--how is it that they were able to come to this 
conclusion? And is this conclusion supported by the facts?
    Mr. Decker. Sir, again, I think Mr. Parker from DLA will be 
able to address that more precisely.
    But if you recall, back in May 2000----
    Mr. Kucinich. I just want to ask you, is that conclusion 
supported by the facts? They are asserting that all defective 
protective suits have been disposed of. Is that statement 
supported by the facts?
    Mr. Decker. Sir, we have not seen evidence that the 250,000 
defective suits have been found and disposed of properly.
    Mr. Kucinich. OK. That--I just wanted to make sure that was 
on the record.
    Now, the Defense Department has agreed that they 
understated the risk related to all of the components of the 
protective suits. Is that correct?
    Mr. Decker. Yes, sir.
    Mr. Kucinich. This is why they agreed to go back and change 
the way they examined these questions. Is that correct?
    Mr. Decker. Yes, sir.
    Mr. Kucinich. Now, my question is this: Does the Defense 
Department also agree with your conclusion on pages 8 and 9 of 
your report, that, in fact, service members are at high risk, 
not low risk? That was pages 8 and 9 of the report.
    Does the Defense Department also agree with your conclusion 
that, in fact, service members are at high risk, not low risk?
    Mr. Decker. Sir, that was our conclusion. We have not 
served specific response on that particular point. As to 
whether they agree with that, I think that question would be 
better deferred to them.
    However, they did agree that the method of calculating the 
risk would be better done if it were done by the entire 
ensemble rather than the individual pieces.
    Mr. Kucinich. By the entire ensemble. I quoted General 
Myers at the beginning of this hearing, who said the military 
is prepared. Based on what you know, Mr. Decker, on what you 
provided to this committee, do you agree with that statement?
    Mr. Decker. General Myers' statement, sir?
    Mr. Kucinich. Do you think there are concerns that ought to 
be----
    Mr. Decker. Sir, based on the work that we have done, the 
reports over the last couple of years about this issue of 
individual protective equipment and the deficiencies, the 
problems, locations, and--I would have reservations that 
everything is exactly the way it should be for any future 
conflict.
    Mr. Kucinich. Has the military met the basic minimum 
requirements? Can the military fail to meet the basic military 
requirements and still protect the troops?
    Mr. Decker. Sir, going back to my chart, you can see where 
there are some serious dips below what the requirement is and 
what we have on hand today.
    Mr. Kucinich. And if they don't meet the basic minimum 
requirements, how are our troops protected at all?
    Mr. Decker. Well, the individual protective equipment, as I 
indicated, is your last line of defense. If each serviceman and 
woman who is in a contaminated environment does not have the 
proper serviceable gear, than they are at risk.
    Mr. Kucinich. Now, you have in your testimony here, that--
you mentioned the individual pieces, the suit, the mask, the 
breathing filters, gloves, boots and hoods, and that there are 
questions about the supply, the inventory--could even be 
questions about safety in the question of suits.
    Then when you look at the ensemble, you get into the 
possibility that, you know, this may not all come together. I 
mean--and here is what I was thinking. For the moment, let's 
not talk about what is a very grim matter here, preparation of 
our servicemen and women for battle.
    Let's say we were talking for a moment about a professional 
football team that was getting ready for the Super Bowl. And 
let's say that the uniforms provided for this team, to protect 
them when they are on the field of play, let's say players had 
the wrong sizes. Some had knee pads, some didn't. Some had 
shoulder pads, some didn't. Some had hip pads, some didn't. 
Some had shoes with cleats, some didn't. Some had helmets, and 
some didn't, or some had helmets that were the wrong size.
    Now, the team really wouldn't be ready to play. People 
would be asking, well, how could you--you are a Super Bowl 
team; how in the world could you be in a condition where you 
don't have the right equipment? You are not ready. How could 
that be?
    Well, let's say we have the best military in the world. Are 
they ready to play in the Super Bowl in the Persian Gulf?
    Thank you, Mr. Chairman.
    Mr. Shays. Thank you. Anyone else before we go to the next 
panel? Mr. Decker.
    And let me just say this. I want any of you to speak out on 
anything that you think the record is not clear on, or any 
question you wished we had asked that we didn't ask. I want it 
on the record. So if there is anything you want to put on the 
record, please do it. If there is any need to clarify the 
record, let's do it and do it now, OK?
    Mr. Decker, do you have something?
    Mr. Decker. Yes, Chairman Shays. I want to mention that GAO 
does not have classification authority, that is received by the 
executive branch agencies that review our work. And I have to 
note that in the area of chem/bio defense and force protection, 
we were experiencing lengthy classification reviews by the 
Department of Defense.
    In many cases, our final draft products which we send to 
the Department for comment, using unclassified material and 
sources, are becoming classified.
    Like the DOD IG, I believe it is critical that we protect 
our products and prevent exposure of vulnerabilities, and there 
is a way that can be done, which is called sanitization, 
meaning taking specific details out.
    However, we are experiencing, in some cases, up to 2 
months' delay in issuing a report while it goes through this 
very uncertain classification review process. And I would like 
to see the Department of Defense address that issue, to be able 
to provide a speedy classification review so that we can 
provide the information that the Congress needs.
    Mr. Shays. Thank you. Any other comment from our panel?
    I would like to put one comment on the table here. This 
was, when we had a hearing on June 19th--excuse me, when we had 
a hearing in April 1997, we had Air Force Major Michael 
Donnelly, testify before our committee. He suffered from the 
progressive debilitating effects of ALS, or what we call Lou 
Gehrig's Disease. Major Donnelly recounted a now all-too-
familiar litany of official refusals to connect his illness 
with his military service.
    He was a once-robust fighter pilot, sat before us in a 
wheelchair, his body racked by the effects of the disease, but 
he spoke with arching eloquence from a heart undamaged by his 
plight, declaring, ``I am not the enemy.'' This veteran of 44 
combat missions in the Gulf war described the shock and 
disappointment of having to confront a fatal disease and his 
own government's cold incuriosity about the cause of his 
illness.
    Now, he believed that ALS was triggered or accelerated by 
wartime exposures, including organic phosphate pesticides; and 
for many years that possibility was dismissed or ignored. 
Recently, the Department of Defense and Veterans Affairs have 
acknowledged that he, in fact, may have suffered this illness 
because of his duty and service.
    But this is the key point. When asked if he would go to war 
again, knowing what would befall him, Michael Donnelly did not 
hesitate 1 second before saying yes. And so I want it on the 
record.
    I believe that most men and women in the force, even if 
they knew about their vulnerabilities, would still choose to 
serve our country and engage whatever enemy in battle. We would 
just like to make sure that, one, first, that it is never a 
fair fight, that they always have the advantage; and two, that 
they never have any illusions about what can defend them or 
not. And Mr. Donnelly, I think, stands as a memorable moment 
for this committee.
    I am prepared to go on to the next panel. I thank you. I 
thank sincerely the work of the IG and all of your people, the 
work of the Inspector General and GAO. It is--you do a 
wonderful service for the men and women in uniform and for the 
eventual success of whatever undertaking we choose. So thank 
you very much, and we will get to our next panel.
    I appreciate this Panel Two, its patience and its listening 
to Panel One. We have Dr. Anna Johnson-Winegar, Assistant to 
the Secretary of Defense for CBD, Department of Defense; 
General Stephen Goldfein, Deputy Director, Joint Warfare 
Capability Analysis, JCS, Department of Defense; Major General 
William L. Bond, Office of the Assistant Secretary of the Army, 
Department of Defense; Mr. Michael A Parker, Deputy to the 
Commander U.S. Army Soldier and Biological Chemical Command; 
and Mr. George Allen, Deputy Director, Defense Supply Center-
Philadelphia, Defense Logistics Agency, Department of Defense.
    If they would come, and we will swear you in, so you might 
want to stay standing. Sorry it is such a cramped table there.
    Is there any one else who may testify, as well, that might 
assist you? If there is the possibility, I would just as soon 
have them sworn so you--if you think that anyone else may want 
to. Anyone?
    OK, seeing none, if you would just raise your hands.
    [Witnesses sworn.]
    Mr. Shays. Note for the record our witnesses have responded 
in the affirmative.
    And I would also like to note for the record that all of 
you are accomplished people in your field of work, you have 
served, you are serving our country well, you have served our 
country well; and we consider it an honor to have you before 
the committee.
    We obviously have some questions that we would like to ask 
you. And I think you know the spirit in which we ask those 
questions. So we are going to go to the 5-minute, if you make 
your statement, Dr. Winegar--I apologize for not saying your 
name correctly. Thank you for your patience in that regard.
    We will go with Dr. Winegar, General Goldfein, General 
Bond, Mr. Parker and then Mr. Allen. We will go in that order, 
OK? And we have a 5-minute trip-over. We prefer that you don't 
take the full 10 minutes, but whatever you think that you need.

STATEMENTS OF DR. ANNA JOHNSON-WINEGAR, ASSISTANT TO SECRETARY 
OF DEFENSE FOR CBD; GENERAL STEPHEN GOLDFEIN, DEPUTY DIRECTOR, 
   JOINT WARFIGHTING CAPABILITY ANALYSIS JCS; MAJOR GENERAL 
WILLIAM L. BOND, OFFICE OF THE ASSISTANT SECRETARY OF THE ARMY 
 (ALT); MICHAEL A. PARKER, DEPUTY TO THE COMMANDER, U.S. ARMY 
 SOLDIER AND BIOLOGICAL CHEMICAL COMMAND [SBCCOM]; AND GEORGE 
  ALLEN, DEPUTY DIRECTOR, DEFENSE SUPPLY CENTER-PHILADELPHIA, 
        DEFENSE LOGISTICS AGENCY, DEPARTMENT OF DEFENSE

    Ms. Johnson-Winegar. Thank you, Mr. Chairman and 
distinguished committee members. I am honored to appear before 
you again to address some of your concerns about the 
Department's chemical and biological defense program.
    I am Anna Johnson-Winegar. I serve as the Deputy Assistant 
to the Secretary of Defense for Chemical and Biological 
Defense. I would like to focus my remarks today on improvements 
to the management and oversight process for the Department's 
Chemical and Biological Defense Program.
    As a result of several initiatives subsequent to my last 
testimony, the Department has made progress in improving areas 
that are of interest to your subcommittee; and we will continue 
to see improvements as recent decisions are implemented over 
the next few months. Along with me today are other 
representatives from DOD who will speak to their particular 
area of expertise.
    In order to address some of the problems related to the 
acquisition of chemical and biological defense systems 
identified during Operation Desert Storm, the Department's 
Chemical and Biological Defense Program was established in 
1994. This law mandates, as you know, the coordination and 
integration of all Department of Defense chemical and 
biological programs under the oversight of a single office. 
Under this program, the individual services submit their budget 
requests under one defense-wide account, separate from their 
service accounts. In addition, we submit an annual report to 
the Congress concerning all aspects of the Chemical and 
Biological Defense Program.
    Following the Defense reform initiative in 1997, the 
position of Assistant to the Secretary of Defense for Nuclear 
Chemical and Biological Defense was left vacant, and my office 
was placed under the Director of Defense Research and 
Engineering.
    In November 2001, the Senate confirmed Dr. Dale Klein to 
fill the position of ATSD NCB, and subsequently, my office was 
moved from DDR&E and now reports to Dr. Klein. This 
reorganization, I believe, has increased the priority and 
emphasis of chem/bio defense within the Department.
    This increased attention also led to the increase in size 
of my office staff from only two to now nine permanent 
positions, plus additional supporting resources. To ensure a 
focused effort in the area of homeland defense, the Deputy 
Secretary of Defense directed the establishment of a 
consequence management program integration office and directed 
that the functions previously performed by that office be 
institutionalized throughout the Department. And in February 
2001, they further directed that research, development and 
acquisition of that equipment be responsible--be dealt the 
responsibility to be delegated to my office.
    As a result of that funding to complete the modernization 
of the weapons of mass destruction, civil support teams are now 
part of the Chem/Bio Defense Program. Also, due to the 
increased visibility and importance of chemical/biological 
defense within the Department, the Under Secretary of Defense 
for Acquisition, Technology, and Logistics, Mr. Pete Aldridge, 
in May 2001, implemented increased departmental oversight of 
this program by formally designating the chem/bio defense 
program as an acquisition Category 1(d) program.
    This designation raises the priority and visibility of the 
chem/bio defense program within the Department and identifies 
the program as a major defense acquisition program. This 
landmark decision provides oversight by senior department 
officials over this critical and national asset.
    Other recent changes have significantly affected the 
security environment and the requirements of the chem/bio, 
defense program. As mentioned earlier today, the QDR of 
September 2001 changed the basic force structure to support 
major theater wars, giving greater emphasis on smaller regional 
conflicts. The services are evaluating the impact of this 
changed force structure on system requirements.
    Second, the terrorist attacks of September 11, 2001, and 
the subsequent anthrax letter attacks have increased the 
potential roles and missions for the Department of Defense in 
supporting homeland security.
    Funding for defense against the potentially devastating 
threat of chemical and biological attacks post-September 11 was 
added from the Defense Emergency Response Fund and Title IX of 
the Defense Appropriations Act of 2002, which has allowed the 
DOD to procure critical defense capabilities and to energize 
the research base to address the most critical deficiencies in 
this key area.
    Another management change recently approached by the Joint 
Requirements Oversight Council is the creation of a Joint 
Requirements Office for Chemical, Biological Radiological and 
Nuclear Defense. General Goldfein will address more details 
regarding that.
    Another key management change is the very recent approval 
of a Joint Program Executive Office for the Chemical and 
Biological Defense Program, in a memorandum signed by Mr. 
Aldridge on the 19th of September. The criticality and 
importance of an integrated and viable program to the Nation 
has increased significantly, and the visibility of chemical and 
biological defense within all government agencies has increased 
far beyond the scope of the program originally established in 
1994.
    The program must be visionary, able to respond quickly to 
warfighter and national security needs, and be streamlined with 
authority and accountability. The JPEO will supersede the 
existing management structure. The JPEO will report through the 
Army acquisition executive to the Defense acquisition 
executive.
    Mr. Aldridge will continue to serve as the single Milestone 
Decision Authority for the Chemical and Biological Defense 
Program. This streamlines the acquisition process, and in 
support of the USD(AT&L) responsibilities, Dr. Dale Klein will 
establish and chair a permanent overarching integrated product 
team consisting of representatives from the military services, 
the joint staff, and the Office of the Secretary of Defense.
    The Army will continue to serve as the Executive Agent for 
the Joint Service Chemical and Biological Defense Program. 
Major General Bond and Mr. Parker will detail key aspects of 
the acquisition program with emphasis on individual protective 
equipment.
    Consumable NBC defense items and maintenance of fielded 
items are managed by the services and the Defense Logistics 
Agency in accordance with their Title X responsibilities. 
Information on the logistical status of the services' chemical 
and biological defense equipment is included in our annual 
report to the Congress.
    The most recent annual report implemented GAO 
recommendations to list items on contract separately from those 
that are actual on hand. We feel this gives a more accurate 
picture of the logistics readiness for U.S. forces. However, 
the annual report only provides a snapshot in time of the 
overall readiness of U.S. forces. Mr. George Allen, from DLA, 
will address more issues related to logistics and inventory 
management.
    In conclusion, as I have outlined, I feel there have been 
significant changes in the management and oversight structures 
of the Chemical and Biological Defense Program over the past 2 
years. Do I believe everything is perfect? Of course not. But 
do I believe everything is better than it was? Absolutely, yes.
    The Department has made significant improvements in the 
decades since Desert Storm. We have made improvements over the 
past 2 years alone to improve the priority and importance of 
protecting our service members against chemical and biological 
threats. These changes have streamlined the oversight process 
and improved Joint Service coordination. They will also enhance 
the linkage between requirements and fielded capabilities. 
These changes are still in the process of being implemented and 
will continue to yield improvements.
    I want to assure this subcommittee that the Department 
views chemical/biological defense as one of our highest 
priorities, and we
remain committed to continued efforts to improve our program, 
to assure the best possible defense for our men and women who 
will face the threat posed by chemical and biological agents.
    Thank you.
    [The prepared statement of Ms. Johnson-Winegar follows:]
    [GRAPHIC] [TIFF OMITTED] T8612.033
    
    [GRAPHIC] [TIFF OMITTED] T8612.034
    
    [GRAPHIC] [TIFF OMITTED] T8612.035
    
    [GRAPHIC] [TIFF OMITTED] T8612.036
    
    [GRAPHIC] [TIFF OMITTED] T8612.037
    
    [GRAPHIC] [TIFF OMITTED] T8612.038
    
    [GRAPHIC] [TIFF OMITTED] T8612.039
    
    Mr. Shays. General Goldfein.
    General Goldfein. Mr. Chairman, Mr. Kucinich, members of 
the committee, approximately 2 years ago the chairman of the 
Joint Chiefs of Staff established a Joint Requirements Office 
for Chemical, Biological, Radiological, and Nuclear Defense 
within the J-8 directorate of the joint staff.
    The chairman's guidance included a specific charter, a 
manning document and an implementation plan for this Joint 
Requirements Office. I am assigned the additional duty to serve 
as the Director of the JRO. Coincidentally, today is our first 
official day as on organization.
    The remainder of my statement describes our organizational 
vision and objective as we look forward, which I request be 
inserted into the record.
    Mr. Shays. That will be inserted into the record.
    [The prepared statement of General Goldfein follows:]
    [GRAPHIC] [TIFF OMITTED] T8612.040
    
    [GRAPHIC] [TIFF OMITTED] T8612.041
    
    [GRAPHIC] [TIFF OMITTED] T8612.042
    
    [GRAPHIC] [TIFF OMITTED] T8612.043
    
    Mr. Shays. General Bond.
    General Bond. Thank you, Mr. Chairman, distinguished 
members of the subcommittee, for this opportunity to discuss 
the Chemical and Biological Defense Program.
    I am the Deputy for Systems Management and Horizontal 
Technical Integration, reporting throughout the Army 
Acquisition Executive to the Secretary of the Army; and as you 
requested, I would like to describe at the macro level the 
processes we use in the defense acquisition system to take a 
requirement or a technology and turn it into a tangible, 
reliable, sustainable product that supports the warfighter.
    I am here today representing the Honorable Claude Bolton, 
Assistant Secretary of the Army for Acquisition, Logistics and 
Technology and the Army Acquisition Executive. I respectfully 
request that his written statement be made part of the record 
for today's hearing.
    Before I get into the details, let me put Mr. Bolton's and 
my bottom line up front. The Army's intent is to make sure our 
fighting men and women have the world's best chemical/
biological defense.
    Mr. Chairman, you and your committee and other Members of 
Congress have expressed concern over our chemical and 
biological defense capabilities. You have challenged us to move 
out with all dispatch to attain the needed capabilities, and we 
have accepted that challenge.
    I've spent over 32 years in military services, from 
warfighting units and staff positions. My tours of fighting 
forces in Germany, Korea and here in the United States taught 
me firsthand that when our military is in harm's way, our 
soldiers, airmen, sailors and Marines need and deserve the very 
best we can provide them.
    It is my earnest hope that chemical and biological weapons 
will never be used. However, history dampens that hope. 
Therefore, we are attacking the task of developing and fielding 
needed chemical/biological defense capabilities with a sense of 
urgency and a determination to overcome any bureaucratic 
obstacles that may remain.
    The very lives of our fighting forces and our fellow 
citizens are at stake. With that in mind, I will do all I can 
do to make sure we are ready to meet our chemical and 
biological challenges that we may encounter in the modern 
battlefield.
    To begin, I need to describe the roles of three key people 
in the acquisition process. The first is the Milestone Decision 
Authority or MDA. The MDA is often the Defense or the Army 
Acquisition Executive, depending on the dollar value of the 
program. This is the person responsible for the decisions 
allowing a program to enter or proceed into the next life cycle 
phase.
    The next person with a critical role in the process is the 
Program Executive Officer or PEO. The PEO for Chemical and 
Biological Defense executes jointly the life cycle research, 
development, procurement and deployment of major end items of 
chemical and biological defense equipment. The mission is 
accomplished by maintaining continuous and effective 
communication with our warfighters. Each of the military 
services, the research, development, test and evaluation 
community, the Office of the Secretary of Defense; and of 
course, Congress, who have oversight responsibility, are 
involved.
    The third key person is the Program or Project Manager. The 
PM is responsible for the day-to-day activities of the program 
and directs the concepts, designs, development, production, and 
initial deployment of our defense systems within the approved 
limits of cost, schedule and performance. The PM ensures the 
warfighter requirements are met efficiently and effectively in 
the shortest possible time.
    As a result of our OSD-led review of the Chemical and 
Biological Defense Program management, the Defense Acquisition 
Executive directed implementation of a revised management 
concept that will effectively use all three individuals 
discussed above.
    The Army is in the process of working with DOD components 
on the details of this implementation. But our intent is to 
structure a management organization that works. I have pledged 
to the DAE that we will assist in developing a management plan 
that will clearly define the roles and responsibility of all 
involved.
    In addition, we will assist in developing organization 
metrics, which are few in number, simple to understand, and 
reportable to the DAE on a regular basis. These metrics will 
show the effectiveness and the efficiency of the organization 
and provide real data upon which to recognize and make 
organizational adjustments in the future, if needed.
    With the organizational concept in place, let me briefly 
discuss some of the responsibilities and processes we will use 
to get the products to the warfighter. Each of the specific 
commodity areas has a corresponding Program Management Office, 
or PMO, and respective programs fall under their area of 
responsibility.
    The PEO and the PM use the Defense Acquisition System on a 
daily basis to execute their responsibilities. The principles 
that govern this process encourage innovation, flexibility, 
tailoring, continuous improvement of the acquisition system 
itself. This process is intended to provide effective product 
transition from science and technology through development and 
production to fielding and sustainment. Validated, time-phased 
requirements allow for an evolutionary program acquisition.
    Advanced technologies are integrated into producible 
systems and deployed in the shortest possible time. The DOD 
acquisition management framework, as shown on the right here--
and you each should have a copy here, which was distributed 
earlier. As requested by the subcommittee, I will now walk 
through you the defense acquisition life cycle.
    The cycle is a continuum of phases. The phases are Pre-
Systems Acquisition, Systems Acquisition, and Sustainment. The 
MDA can allow a program to enter an acquisition life cycle at 
any phase, in accordance with the technical maturity and 
acceptable risk.
    The program life cycle starts with a validated user's needs 
statement or operational requirements document or a mission 
need statement. The requirements generation process manages the 
generation and validity of--validation of this need, based on 
capabilities required, and in some cases, a specific threat to 
be countered.
    Concurrently, as part of the Pre-Systems Acquisition Phase, 
the PM begins identifying promising technologies in the 
Department's laboratories and research centers, as well as in 
academia and from commercial sources. Entrance into the Systems 
Acquisition Phase indicates that the user and the developer 
have agreed on a design concept and a technical approach, and 
the MDA has approved the acquisition approach.
    During this phase, the PM reduces the program risk and 
ensures the program is mature enough for productions. The PM 
evaluates, and if necessary, reduces integration and 
manufacturing risks, designs for producibility and ensures 
operational supportability, affordability and interoperability. 
The system also undergoes rigorous testing and evaluation 
during this phase.
    The final phase is the Sustainment phase, which begins when 
the support performance requirements are achieved and when the 
system is sustainable in the most cost-effective manner for its 
entire life cycle. At this point, management of the system 
transitions to the service system command or the defense 
logistics agency.
    But the program doesn't stop there. At end of its useful 
life, the PM ensures that the system is demilitarized and 
disposed of in accordance with legal and regulatory 
requirements. The acquisition cycle is continuous. As the field 
identifies improvement or modifications, or as new requirements 
are identified by the user through an evolving concept of 
operation or emerging doctrine, or as advances in technology 
surface and changes in the threat develop, we are able to 
insert the required material improvements and manage them in 
appropriate portion of the acquisition life cycle.
    We have continued to refine our process of the metrics or 
objective measures of effectiveness we will use in getting the 
best equipment available into the hands of our warfighter.
    In summary, we are committed to providing our soldiers, 
sailors, airmen and Marines the best technology and equipment 
at the right place at the right time and at the right cost.
    This concludes my opening remarks. I am pleased to answer 
any questions from the members of the subcommittee.
    [The prepared statement of Mr. Bolton follows:]
    [GRAPHIC] [TIFF OMITTED] T8612.044
    
    [GRAPHIC] [TIFF OMITTED] T8612.045
    
    [GRAPHIC] [TIFF OMITTED] T8612.046
    
    [GRAPHIC] [TIFF OMITTED] T8612.047
    
    [GRAPHIC] [TIFF OMITTED] T8612.048
    
    [GRAPHIC] [TIFF OMITTED] T8612.049
    
    [GRAPHIC] [TIFF OMITTED] T8612.050
    
    [GRAPHIC] [TIFF OMITTED] T8612.051
    
    [GRAPHIC] [TIFF OMITTED] T8612.052
    
    [GRAPHIC] [TIFF OMITTED] T8612.053
    
    [GRAPHIC] [TIFF OMITTED] T8612.054
    
    [GRAPHIC] [TIFF OMITTED] T8612.055
    
    [GRAPHIC] [TIFF OMITTED] T8612.056
    
    [GRAPHIC] [TIFF OMITTED] T8612.057
    
    Mr. Gilman [presiding]. Mr. Parker, will you proceed?
    Mr. Parker. Thank you, Mr. Chairman, committee members. My 
name is Michael Parker. I am the Deputy Commander of the U.S. 
Army Soldier Biological and Chemical Command.
    My boss, Major General John Doesburg, has a number of 
responsibilities in the Chemical and Biological Defense 
Program, two of major significance to your hearing today; that 
is, he heads a group of component service general officers who 
are responsible for the planning, programming, and budgeting 
for the materiel, that is, the equipment which is developed 
under and procured under the Chemical and Biological Defense 
Program; and he has the laboratory structure which provides the 
technology and the engineering support to the project managers 
that were outlined in Major General Bond's discussion of the 
acquisition process.
    I would like to just touch on about a half-dozen of over 
150 projects and work packages that encompass the Chemical and 
Biological Defense Program as far as equipment and technology 
development.
    These six focus on the issue today that this committee is 
pursuing today of individual protection. The Joint Service 
Protective Mask is a current development mask to replace the 
fielded M-40 mask and the MCU-2P. It is a significant 
improvement over the field mask, providing a much lighter mask, 
a better fit factor, a larger lens to improve visibility and 
compatibility with weapons systems, significantly reduced 
breathing resistance to reduce the burden on the soldier, 
sailor, airman, Marine who would wear this in a combat 
environment.
    It also considers observations by this panel or this 
committee, many of the audit agencies and one of our own 
internal Army and other service reviews in the area of reducing 
the burden on preventive maintenance in the field environment. 
The design is such that it is much more robust and will reduce 
the burden on the user to continually maintain the equipment. 
It will also replace all of the ground masks, such that the 
services will have a single mask, reducing the total ownership 
costs and logistics burden. We anticipate an initial fielding 
of that mask in about fiscal year 2006.
    The next item is the Joint Service Chemical Environment 
Survivability Mask, which is a mask that the combatant 
commanders and field forces have asked for, which is designed 
to provide a capability in a reduced threat environment. The 
individual protective equipment that is fielded now is designed 
against a maximum threat. There are many conditions where the 
threat is present, but the concentration of chemical and 
biological agents would be much reduced.
    This piece of equipment is designed for a--to be a single-
use item, capable of protecting for a short duration at a 
significantly reduced burden. We anticipate fielding that in 
the 2005 timeframe.
    The Joint Service Aircrew Mask will be a standard mask for 
high-performance aircraft, replacing a number of masks that are 
fielded, primarily between the Air Force and the Navy. It will 
be fully compatible with all of the high-G, high-pressure 
systems that are on high-performance aircraft, also reducing to 
a single mask to reduce the logistics burden. We anticipate 
fielding it in the 2006 timeframe.
    The Joint Service Mask Leakage Tester is a system that will 
be able to test masks to production standards in a small 
compact piece of equipment that will be man portable and will 
be much easier to take to the field, to conduct that operation 
in the field. We anticipate fielding that in the 2003 
timeframe.
    The Joint Service Protective Aircrew Ensemble is an 
extension of the lightweight suit technology program to create 
a suit specifically oriented toward aircrews and the 
environment that they have to operate in. That will also be a 
2005 fielding.
    The Joint Service Lightweight Integrated Suit Technology 
ensemble, which has been discussed somewhat today, is a program 
of a continuous nature where new materials will be continually 
introduced in the ensemble to reduce the burden, the heat 
stress, the weight of the suit, improve performance such as 
launderability, wear and tear, replace the current series of 
three gloves with a single set of gloves--that type of 
continuous improvement. It will also be compatible with the 
maintained capability of the new General Purpose Mask.
    One of the additional challenges which we continuously 
introduce into equipment is the recognition that we are facing 
threats, or our forces will face threats, in the field beyond 
the traditional chemical warfare agents and biological warfare 
agents. Toxic industrial chemicals can be diverted and can 
present a challenge to our field forces if purposefully 
employed, or if released as a collateral effect as we operate 
in urban terrain where there are maybe large chemical plants or 
storage of chemical materials that are industrial in nature, 
but nonetheless very toxic. We are expanding the protection 
capability of all of our fielded systems to deal with these 
toxic and industrial chemicals.
    With that, let me summarize and be open for your questions.
    Mr. Gilman. Thank you, Mr. Parker.
    [The prepared statement of Mr. Parker follows:]
    [GRAPHIC] [TIFF OMITTED] T8612.058
    
    [GRAPHIC] [TIFF OMITTED] T8612.059
    
    [GRAPHIC] [TIFF OMITTED] T8612.060
    
    [GRAPHIC] [TIFF OMITTED] T8612.061
    
    [GRAPHIC] [TIFF OMITTED] T8612.062
    
    [GRAPHIC] [TIFF OMITTED] T8612.063
    
    [GRAPHIC] [TIFF OMITTED] T8612.064
    
    Mr. Gilman. Mr. Allen.
    Mr. Allen. Good morning, Mr. Chairman, and Mr. Kucinich, 
distinguished Members. I am George Allen, representing Vice 
Admiral Keith Lippert, who is Director of the Defense Logistics 
Agency.
    I appreciate the opportunity to come before this committee 
to address your concerns concerning individual protective 
equipment and supplies used against a chem/bio attack.
    Mr. Gilman. Can you bring the microphone closer to you, 
please?
    Go ahead.
    Mr. Allen. I have submitted a written statement for the 
record, which I would like submitted.
    Mr. Gilman. It will be accepted for the record.
    Mr. Allen. In your invitation to testify, you requested 
that we address the progress we have made with respect to 
equipment inventories, quality controls, serviceability for the 
battle dress overgarment and the JSLIST suit in particular.
    You also asked that we address or focus on the effect of 
management, proper maintenance, ready availability and the on-
hand status of both the equipment and supplies. And in response 
to these questions, I hope to make three very, very important 
points to this committee.
    First, we will do everything in our power to prevent the 
outrageous criminal conduct that resulted in the presence of 
defective BDOs in our inventories in years past. We have 
reemphasized the especially rigorous quality assurance measures 
in our contracting for these items. And we continuously monitor 
the shelf life of all such items in conjunction with the 
Program Manager and the military services.
    Second, we have significantly improved our visibility of 
inventory over these items.
    And, finally, we maintain a very close working relationship 
with the Program Manager and our customers to ensure as much 
integration of these items as we can.
    The most significant chemical and biological protective 
items we have bought on behalf of the services are the BDOs, 
battle dress overgarments, the JSLIST suits mentioned by Mr. 
Parker, and the chemical gloves, although there are a number of 
other items. We store a large number of these items on behalf 
of the customers in our depots. We are now able to manage the 
shelf life of these because we have begun to store these items 
in lots by their shelf life expiration date. We plan to expand 
this capability to managing these items by specific 
manufacturing lot as we implement our new Enterprise Resource 
Planning System.
    The quality assurance and shelf life surveillance 
provisions that we have implemented for JSLIST suits, in 
particular, represent a significant improvement over those we 
used for BDOs in years past. We have expanded the shelf life 
surveillance provisions to everything that is also in the 
inventory. We work closely with the military services and their 
agents and other agencies in this effort. We take random 
samples from every JSLIST lot that is manufactured to undertake 
further testing and quality control before government 
acceptance.
    The component manufacturers have to provide a certificate 
of compliance before the components are provided to the prime 
contractors. The prime contractors have to inspect those 
components, then they have to perform inspections throughout 
the manufacturing process as part of our contract.
    Defense contract management agency quality assurance 
representatives are part of this process, and we employ 
independent labs that provide live agent testing on the end 
item as opposed to on the individual pieces of materiel.
    Similar procedures are also in place for newly purchased 
items and some of the shelf life procedures are in place for 
items that remain in the inventory. Overall management of 
individual protective equipment used for chem/bio defense is 
really the responsibility of program management. Oversight is 
provided by Dr. Winegar, as she has maintained. We maintain a 
close working relationship for the Program Manager in our role 
of acquiring and warehousing these items.
    Over the past decade, we have provided several million 
suits to the military services. There are currently over 4 
million suits in the inventory, according to the Program 
Manager and as testified to by GAO. That 4 million suits 
includes approximately 1.5 million JSLIST suits, and there are 
several hundred thousand more JSLIST suits on contract not yet 
delivered. In the event of a contingency, we can surge 
production to 1.4 million suits annually.
    Our current replacement requirements for gloves in the 
aggregate are approximately 1 million pairs annually. We are 
negotiating contracts with surge capacity of up to 2.5 million 
pairs of gloves per year.
    Switching to medical supplies, which was mentioned also in 
your letter, we use similar processes to work with the DOD and 
determine requirements and to contract for those medical 
supplies. We currently have contract coverage to meet the 
requirements for all of the services in the event of a single 
major theatre of war, and we are expanding that capability to a 
larger scenario, should it be required. These contracts 
guarantee availability of up to $630 million worth of materiel 
if we exercise all of the refresh options in the contract. And 
as I have said, this is the equivalent to a single major 
theatre war.
    Mr. Chairman, in conclusion, we are working closely with 
the services to ensure integrated management of the chem/bio 
protective items in a way we were not 2 years ago. We have 
reemphasized and strengthened our quality assurance measures to 
ensure the products comply with technical requirements for the 
items; and we monitor the shelf level of all of these items in 
our inventories over time.
    And, finally, Mr. Chairman, we have made some significant 
improvements in our visibility of the inventories of these 
items, and we are poised to realize much more significant 
advances as our agency deploys its new Enterprise Resource 
Planning System.
    Subject to your questions, that concludes my testimony.
    Mr. Shays [presiding]. Thank you.
    [The prepared statement of Mr. Allen follows:]
    [GRAPHIC] [TIFF OMITTED] T8612.065
    
    [GRAPHIC] [TIFF OMITTED] T8612.066
    
    [GRAPHIC] [TIFF OMITTED] T8612.067
    
    [GRAPHIC] [TIFF OMITTED] T8612.068
    
    [GRAPHIC] [TIFF OMITTED] T8612.069
    
    [GRAPHIC] [TIFF OMITTED] T8612.070
    
    [GRAPHIC] [TIFF OMITTED] T8612.071
    
    [GRAPHIC] [TIFF OMITTED] T8612.072
    
    [GRAPHIC] [TIFF OMITTED] T8612.073
    
    [GRAPHIC] [TIFF OMITTED] T8612.074
    
    [GRAPHIC] [TIFF OMITTED] T8612.075
    
    [GRAPHIC] [TIFF OMITTED] T8612.076
    
    [GRAPHIC] [TIFF OMITTED] T8612.077
    
    [GRAPHIC] [TIFF OMITTED] T8612.078
    
    [GRAPHIC] [TIFF OMITTED] T8612.079
    
    [GRAPHIC] [TIFF OMITTED] T8612.080
    
    Mr. Shays. We are going to be calling on Mr. Gilman. I 
would just say that one part that I will want you to address is 
this issue of who is responsible for inventory. Because, 
frankly, I felt like you were just throwing it right back to 
Dr. Winegar; and I just--I tend to feel that basically, Mr. 
Allen, it really rests in your agency.
    And just before we ask questions again, really we ask to 
give a shape to this panel. We asked Dr. Winegar to be here as 
the Program Manager of the life cycle as we go through.
    We look at you, General Goldfein, as being responsible for 
the issue of requirements.
    Mr. Bond--General Bond, excuse me--the issue of 
acquisition.
    And the testing and training, Mr. Parker, kind of in your 
area.
    And then the logistics, kind of, in your area, Mr. Allen.
    That is kind of how I view this panel; if I am inaccurate 
about that, I will need to be straightened out.
    And I will also say, General Goldfein, that I was waiting 
for you to read in your statement, on page 3, ``Approval of all 
ACAT 1 ORDs rests with the JROCs.'' I figured that every two 
words you had an acronym, and we only allow two per sentence. 
So you didn't give me the pleasure of interrupting you then.
    OK, Mr. Gilman.
    Mr. Gilman. Thank you, Mr. Chairman. And I want to commend 
the panel for concentrating on trying to have better 
inventories and better quality material. However, this panel, 
our committee is concerned about testimony we received at our 
first panel.
    In their prepared testimony, GAO stated that the Department 
of Defense cannot easily identify, track and locate defective 
suits because inventory records do not always include contract 
and lot numbers. And in May 2000, DOD directed units and depots 
to locate over some-700,000 defective suits produced by a 
single manufacturer; and as of July 2002, as many as 250,000 of 
those suits remained unaccounted for.
    I welcome some comment from all of you.
    The DOD IG stated that the Defense Logistics Agency, DLA, 
reported to the DOD OIG that DLA believed that 250,000 
unaccounted-for BDOs were issued, worn and disposed of. DLA 
also reported that based on repeated messages and advisories 
and through incentives to their customers, DLA believed any 
remaining defective BDOs were identified and pulled out of 
serviceable inventories. Once segregated, the defective BDOs 
were to be used solely for training.
    However, according to the IG, not all units have received 
that information from higher headquarters; and as recently as 
April of this year, the IG continued to identify units that had 
not segregated the defective BDOs.
    Why does DOD continue to have defective BDOs in unit 
inventories? And why have some of those units not received the 
advisories regarding these defective BDOs?
    How can DOD ensure defective BDOs are not going to be 
located and used in theater as we prepare for hostile action?
    Mr. Shays. And you will note for the record that Members of 
Congress can use acronyms, as many as they want, in a sentence.
    Mr. Gilman. I want you to know it would be very helpful if 
you could give us a summary of all of those acronyms so that we 
would be better advised.
    But, please, I address that to all of the panel. Who is 
prepared to respond to that? You have made extensive comments 
about the history of your agencies and how well prepared you 
were are.
    What are we doing about those defective units?
    Mr. Shays. Do you want to ask each of those three questions 
again separately?
    Mr. Gilman. Sure. Why does the DOD continue to have 
defective BDOs in their unit inventories? Who would like to 
venture?
    Mr. Allen. Sir, I think the best way to answer your 
question is to reiterate for you what we have done to attempt 
to purge inventories.
    Mr. Gilman. I know what you are trying to do. Why are these 
defective units still there?
    Mr. Allen. The inventories would sit out there at the unit 
level, as you have noted and as the prior panelists have noted, 
that are in the control of the commanders. If the word has not 
gotten down to the commanders, if the commanders have not 
cleared out their inventories, if they have not taken the 
incentive to return those units to us, that would be the reason 
why there may be----
    Mr. Gilman. Who is responsible for doing that, if not you 
five panelists who are in charge of all of this?
    Mr. Allen. The unit commanders, through their chain of 
command, are responsible for the inventories within their 
control, sir.
    Mr. Gilman. But if they are not responding, isn't that the 
responsibility of you panelists to make sure that they are 
responding? You are in charge of inventories; you say you want 
the troops to be better prepared, to be fully equipped to go 
into hostility.
    Mr. Shays. Will the gentleman suspend a second?
    Mr. Allen, but basically the question is directed at you 
because you are in charge of the logistics. And we need an 
answer to the question of why. It is really not directed, I 
don't think, to all of the panelists here yet, unless you can 
direct us to someone on this panel that it should be directed 
at.
    You are in charge of logistics. We need to know why 
defective equipment is still out there. And that is the 
question; he wants to know why.
    Mr. Allen. All I can tell you, sir, is that the way the 
inventory process works is that we purchase this inventory 
under the auspices of the Program Manager. We supply it to the 
unit commanders--not all of it but some of it--we supply it to 
the unit commanders; at that point, custody of that inventory 
passes to the unit commanders.
    Mr. Gilman. Mr. Allen, is there some defective equipment 
now in the hands of the unit commanders?
    Mr. Allen. Sir, I cannot say for certain that there is or 
is not. We have said what we have tried to do to purge all of 
the inventory. I cannot give you any better answer than that, 
sir.
    Mr. Gilman. Why have some units not received the advisories 
regarding this defective equipment?
    Mr. Allen. We provided the information through the program 
managers, through the military services down the chain of 
command. And if the chain of command--if there was a failure of 
communication there, sir, I do not know how to address that.
    Mr. Gilman. Well, again to the entire panel. If there is 
defective equipment out there and if the unit commanders are 
not trying to cleanse that defective equipment from their 
units, don't you have some responsibility to make certain that 
our troops are going to be out on the battlefield without 
defective equipment?
    And again I address that to the entire panel. You folks are 
in charge of providing decent equipment. And you said it in 
your testimony, your major objective is to make certain that 
our troops have the kind of equipment they need.
    General Bond. Mr. Gilman, we do take this very seriously. 
And I can speak personally from personal experience. But I can 
also tell from my current job that the Program Manager, working 
through the Defense Logistics Agency, makes inventories, goes 
out and checks with the unit commanders, tries to find and 
identify these stocks that have not been turned in, tries to 
make sure that these bulletins are provided to the commanders.
    I think that the Defense Logistics Agency's incentive 
programs have made it to these commanders that are looking for 
ways in which to further their capabilities, by turning this 
in, can acquire additional resources, is a great way to try to 
do it, and a help that the GAO and other audit agencies, even 
within our own internal IG ranks, have gone out and tried to 
identify within these units--those units which have failed to 
provide or return these, and turn in these defective garments.
    We will continue to do that. We are not going to give up on 
it, Congressman.
    Mr. Gilman. General Bond, we are approaching E-Day here, or 
whatever day you want to call it, when we are going to be 
confronting Iraq. We have 250,000 defective units that are not 
identified or found in our inventories.
    Aren't you fellows concerned about that?
    General Bond. Yes, sir. And we will continue to work to try 
to identify any of those.
    I tend to agree with Mr. Allen that most of these, if not 
all, have been purged out of the system through the normal 
training process. Yes, there are probably--the possibility that 
some may be lingering out there. But I would almost guarantee 
from personal experience that they would not be in high 
priority units. They would have to be in a unit that was not 
training all of the time, for which those kind of stocks were 
not brought up.
    Mr. Gilman. GAO has stated that some of them may be 
lingering in the warehouses, but you need some manpower to 
identify them. Why aren't we applying that?
    General Bond. The warehouses you would have to discuss with 
Mr. Allen.
    Mr. Gilman. Well, Mr. Allen, what do you say about that?
    Mr. Allen. We have turned in all of the suits that--all the 
suits that we have received, we have segregated or are or are 
in the process of destroying them, so they cannot fall into the 
hands of soldiers who might inadvertently use them, thinking 
that they were going to be protected.
    The warehouses----
    Mr. Shays. Will the gentleman yield?
    Why wouldn't we take those that are defective, clearly mark 
them, put a big X on them or whatever, and use them for 
training? Why would we destroy them?
    Mr. Allen. We went through a significant discussion on 
exactly that point, sir; and given the sensitivity of those 
items, we decided to take the ones which were defective and 
destroy them so that there would be no possibility that they 
would ever, in any way, find their way into someone's hands. It 
was absolutely a conscious decision. It was not made lightly.
    Mr. Shays. The sad thing about that decision, though, 
because you could make it so noticeable that you wouldn't have 
to ever fear they would be used improperly. I am constantly 
being asked to appropriate more money and to--we, the 
committee, Members of Congress, to make sure that our troops 
practice with live ordnance.
    We also want to make sure that they practice--I don't mean 
practice--that they train with live ordnance, that they train 
with equipment that is the same equipment that they would use 
in the battle. And, to me, this is nonsensical, what you just 
told me, that they would destroy it.
    Mr. Allen. Sir, one of--in accordance with that exact 
thought, we took the ones that--the suits that were not 
determined to be defective, but had been--had expired shelf 
life. And we do use those suits for training only; we take them 
out of their vacuum-sealed bags, we mark them very clearly with 
big black ink ``For Training Only.'' But we chose not to do 
that with the suits which were determined to be defective, 
because we simply didn't want any possibility that they might 
be used.
    Mr. Shays. Thank you.
    Mr. Gilman.
    Mr. Gilman. What are your comments, then, about GAO's 
report that there is still 250,000 defective pieces of 
equipment that have not been identified or found? What is your 
response to that?
    Mr. Allen. The response, sir, is that I can reiterate the 
actions that we have taken to attempt to identify, to account 
for----
    Mr. Gilman. Have you accounted for the 250,000?
    Mr. Allen. We have accounted for 550,000 out of the 800 
that we did issue over the past 10 years. We have not accounted 
for the 250,000 which were issued and have not been turned in.
    Mr. Gilman. So what are we doing to account for those?
    Mr. Allen. As recently as last month we provided another 
notice to all of the military customers through the military 
services to turn those suits in if they had them out there, to 
screen their inventories again, turn them in. We provided 
transportation funds to--for them to utilize so that they could 
do it at no cost, is one of the ways that we attempted to 
incentivize them to turn that material in, should it be found 
out there.
    Mr. Gilman. I'm asking our entire panel, are you satisfied 
that tomorrow, if we go to battle with Iraq, that there would 
be no defective equipment out on the battlefield?
    Mr. Allen. I think there's a very low degree of risk of 
defective suits out on the battlefield, sir.
    Mr. Gilman. Despite the fact that you can't locate 250,000 
of these defective units.
    Mr. Allen. That is my assessment, sir.
    Mr. Gilman. I address our other panelists.
    What are your thoughts about that? There's 250,000 
defective pieces of equipment that haven't been located. Are 
you assured that these--that these are not out on the 
battlefield?
    Ms. Johnson-Winegar. I don't think there is a perfect 
assurance if that's what this committee is looking for.
    I'm personally appreciative of the comments that were 
provided earlier by the GAO and the DOD IG on the effort that 
would be needed to individually account for every single item 
in the inventory. I cannot tell you this morning whether the 
DOD is prepared to undertake that level of assessment or not.
    I do share your concern. I would be very upset if an 
individual service member were to go into an environment facing 
chemical and biological weapons in defective gear. None of us 
on this panel, none of us from the Department of Defense would 
like to face a situation like that.
    And I want to assure you that I certainly support the DLA 
in their efforts to make an assessment of the inventory, and we 
will continue to pursue that until we are satisfied.
    Mr. Gilman. Well, I hope you will. This is an imminent 
situation that could happen tomorrow, next week. And yet we 
have some 250,000 defective suits out there that should be 
removed from the hostile area. And I hope that you're going to 
find a way to do that.
    I direct that to all of the panelists.
    Ms. Johnson-Winegar. Sir, I would just like to clarify that 
the number is somewhere between zero and 250,000. I don't know 
that any of us today can tell you that there are 250,000 
defective suits anywhere in the----
    Mr. Gilman. Mr. Allen just testified, out of the 800,000 
you found, about 500,000, so it must be in that range.
    Any other comments by any of our other panelists with 
regard to our query?
    If not, my final urgent message is, let's get rid of these 
defective units and not allow our troops to be out on the 
battlefield with defective body suits.
    Thank you, Mr. Chairman.
    Mr. Shays. Thank you, Mr. Gilman.
    Mr. Kucinich, you have the floor. I'd like to welcome our 
two Members, Ms. Schakowsky and Mr. Allen, who are both 
welcome. I know they have been very busy on other things, but 
happy to have you here.
    Mr. Kucinich.
    Mr. Kucinich. In the testimony by the IG's office, they 
said that the Defense Logistics Agency reported to us that they 
believe that the 250,000 unaccounted-for overgarments that are 
at issue here were issued, worn and disposed of.
    Now Dr. Winegar just said that the number is anywhere from 
zero to 250,000.
    There's a contrast here with the IG's report and the 
Defense Logistics Agency's account. Do you want to reconcile 
it?
    Ms. Johnson-Winegar. Sir, I believe that the DLA testimony 
was that, of 800,000 items that were determined to be 
defective, they have made a positive accounting for 550,000 of 
those at this time.
    Is that correct, Mr. Allen?
    Mr. Allen. Yes, ma'am.
    Mr. Kucinich. I'm asking the questions here. So I would 
like to say that we're on the record saying there are 250,000 
unaccounted-for suits. You're saying it could be anywhere from 
zero to 250,000, but it could be 250,000?
    Ms. Johnson-Winegar. That's correct.
    Mr. Kucinich. OK.
    At the end of the last panel, Mr. Decker of the GAO said 
that the Defense Department had been extremely slow in 
reviewing GAO's work for classification concerns. He said this 
process has slowed to the point that sensitive and timely GAO 
reports that relate directly to this chemical and biological 
area are being significantly delayed, in some cases, by as much 
as 2 or 3 months.
    So, Doctor, why is the Defense Department slowing and 
delaying its review of GAO reports regarding chemical and 
biological vulnerabilities?
    Ms. Johnson-Winegar. Sir, I'd like to say for the record 
that I do not believe the Department is deliberately slowing 
its review of any such reports. I think this attests to the 
fact that we are taking the issue very seriously and providing 
a very thorough and very comprehensive review by many different 
offices within the Department of Defense. And that does require 
a certain amount of time so that each and every individual who 
brings their own area of expertise to bear on the question does 
have adequate time to provide that level of review.
    Mr. Kucinich. Now, the people at this table, the Defense 
Department's top experts on chemical and biological dangers, is 
the cause of the delays in reviewing the GAO reports, is this 
the panel that's the cause of it?
    You want to answer? You could go right down the line, yes 
or no.
    Ms. Johnson-Winegar. Sir, my office is one of many offices 
that's provided an opportunity to review and comment on the GAO 
report; and depending on the length and the complexity of that 
report, as I said, I think it is incumbent upon to us provide 
our very best assessments of that.
    I hope you'll appreciate the workload that all of us have 
and the care and consideration which we want to give to this 
report. I can only speak personally from my own office. I do 
not have direct control over many other offices in the 
Department of Defense who do the security review, who do the 
intelligence assessment, etc.
    Mr. Kucinich. I'm going to say that your answer is 
nonresponsive.
    Now, this is a serious concern. The GAO is Congress' 
investigative arm, and we rely on them to provide us with 
critical information on vulnerabilities and dangers which the 
servicemen and women serving this country face. We depend on 
them for independent and unbiased reporting.
    Now, Mr. Chairman, at the start of the hearing, we heard 
Mr. Schmitz, the Inspector General, make an offer to this 
committee to investigate any irregularities or improper actions 
by the Defense Department in their classification procedure. I 
mean, in view of the fact that we have Mr. Decker stating that 
the Defense Department's been extremely slow in reviewing GAO's 
work for classification concerns, and since there is a question 
here of timeliness and GAO reports that relate directly to 
chemical and biological preparedness, and since we know they're 
being significantly delayed, and since this panel and the 
gentlelady have not made a case for the reason for the delay, 
and considering the critical nature of this moment, when this 
country may well be at the threshold of sending our men and 
women into a region where biological and chemical weapons could 
be used, it seems to me that this subcommittee should request 
that the Inspector General investigate and report on the claims 
that the GAO made.
    I just want to offer this for the consideration of the 
Chair and the members of this committee, because it seems that 
this is a matter that needs to be pursued.
    Now, Mr. Chairman, how much time do I have remaining?
    Mr. Shays. Four minutes.
    Mr. Kucinich. There is a finding, Doctor, in the GAO's 
unclassified report that is particularly troubling. On page 8 
they describe a situation in which the Pentagon is 
``understating the real risk,'' to our service members. Let me 
ask you a quick series of questions on this.
    First of all, do you concede that the Defense Department 
has understated the real risk? I'm directing it to Dr. Winegar.
    Ms. Johnson-Winegar. I think that you have to put the 
estimation of the risk in the proper context. And I'd 
appreciate if could you read the entire sentence.
    Mr. Kucinich. This is from page 8 of the GAO report.
    Ms. Johnson-Winegar. Sir, I was not provided a copy of that 
report until this morning.
    Mr. Shays. Excuse me. This is a statement, the report is--
this is the statement of the GAO before us.
    Mr. Kucinich. Since you haven't been provided with a copy, 
I'm going to read from the copy.
    Ms. Johnson-Winegar. Sir, I would like to enter into the 
record that we did ask for an advance copy of this, so that I 
could be prepared to answer your questions; and no copy was 
provided until this morning.
    Mr. Kucinich. But may I ask, in reply, whether or not it 
would be appropriate to ask you to answer questions based on 
things that are certainly within your operational knowledge.
    Ms. Johnson-Winegar. Certainly.
    Mr. Kucinich. OK.
    The GAO said that we reported that the--they're citing 
previous circumstances where they found that the DOD had 
inaccurately reported the risk in most cases as low. And having 
reported that the process for determining risk is fundamentally 
flawed because, one, the DOD determines requirements by 
individual pieces of protective equipment--suits, masks, 
breathing filters, gloves, boots and hoods--rather than by the 
number of complete protective ensembles that can be deployed to 
the service members; and they go on to say, No. 2, the process 
for determining risk combines individual service requirements 
and reported inventory data into general categories, masking 
specific critical shortages that affect individual service 
readiness.
    And he goes on to conclude, had DOD assessed the risk on 
the basis of the number of complete ensembles it had available 
by service, the risk would have risen to ``high'' for all the 
services.
    So, the question comes again, do you concede that the 
Department of Defense has understated the real risk?
    Ms. Johnson-Winegar. I agree with the GAO's assessment of 
how the risk should be calculated. I also agree that this is 
the GAO assessment of what the risk would be if that 
recalculation were done.
    The Department of Defense is in the process of redoing that 
calculation ourselves, and I agree that it will probably change 
from our previous recommendation.
    Mr. Kucinich. So you're redoing the calculation?
    Ms. Johnson-Winegar. That's correct.
    Mr. Kucinich. We're at the threshold possibly of an 
invasion of Iraq and the calculations are being redone. That's 
fine.
    Now do you concede, as the GAO does, that the data the 
Department has used is fundamentally flawed?
    Ms. Johnson-Winegar. No, I do not.
    Mr. Kucinich. Do you concede that the Department has 
quoting from the GAO, ``inaccurately reported the risk in most 
cases as low?''
    Ms. Johnson-Winegar. That relates to the method that was 
used for calculating the risk, and I have already agreed that 
we agree now with the GAO on a different way to calculate the 
risk.
    Mr. Kucinich. That's fine. Then do you--rather than low 
risk, do you agree with the GAO that, in fact, the risk is 
high?
    Ms. Johnson-Winegar. I'm not prepared to say that it's 
high. I'm prepared to say that it is probably different than 
our original calculation.
    Mr. Kucinich. So it's not low.
    Ms. Johnson-Winegar. Probably not.
    Mr. Kucinich. And because you know it's not low, you're 
recalculating. Could it be high?
    Ms. Johnson-Winegar. It could be.
    Mr. Kucinich. OK. Why does the DOD insist on ignoring the 
GAO and making statements like those made by General Myers in 
which, obviously, the risk is being understated, the risk to 
our servicemen and women is being understated?
    Why does the GAO make statements like that, since this is 
something that is so important? We're talking about the 
security of our men and women.
    Ms. Johnson-Winegar. I think that the GAO's statement 
relates to one particular item, and in this particular case 
we're talking about the protective ensemble for chemical/
biological defense. Without knowing General Myers' entire 
statement and, again, putting that into the proper context, I 
believe that the availability and readiness of chemical/
biological protective ensembles is but one piece of the overall 
assessment of readiness.
    Mr. Kucinich. One piece is the suit itself, correct?
    Ms. Johnson-Winegar. That's correct.
    Mr. Kucinich. If there are holes in the suit and tears in 
the seams, is that of concern to you?
    Ms. Johnson-Winegar. Absolutely.
    Mr. Kucinich. There's 250,000 of those suits, is that 
correct, that are out there?
    Ms. Johnson-Winegar. Yes.
    Mr. Kucinich. You don't know where they are; is that 
correct?
    Ms. Johnson-Winegar. That's correct.
    Mr. Kucinich. OK. But the DOD has claimed, miraculously, 
even though they don't know where those suits are, that they've 
all been accounted for, that they've all been issued, worn, and 
disposed of.
    So, Mr. Chairman, I appreciate your generosity with the 
time. I have another set of questions if we get to that point. 
Thanks.
    Mr. Shays. Thank you.
    We have Mr. Tierney.
    Mr. Tierney, you have the floor.
    Mr. Tierney. Thank you. I'd like to see that my colleagues 
get an opportunity to question. I want to be brief.
    Which one of you folks would be dealing with training? 
Would that be you, Mr. Parker?
    Mr. Parker. Mr. Tierney, I'm really connected with the 
acquisition side as well. I think of the panel members here, 
that their current capacities--we're lacking someone who's 
addressed training as a functional speciality.
    Mr. Tierney. All right. Certainly cramps one's style of 
question, doesn't it?
    General Goldfein. Perhaps not.
    In this Joint Requirements Office that I indicated to you 
earlier we have just formed up and are looking forward to new 
ways of developing requirements for the Department, training 
falls in a category of activities that we'll look at. I'd be 
happy to attempt to follow through, then, with whatever your 
question is.
    Mr. Tierney. Let me ask you, I don't want to put you at a 
disadvantage on that, but I'm curious to know, in your opinion 
then, are you able to make an assessment as to whether or not 
an adequate number of people have been trained--men and women 
have been trained for involvement in a venture that might take 
to us Iraq?
    General Goldfein. I would not be able to judge that overall 
picture, sir, but what I can tell you perhaps is a couple of 
other points. One relates to Mr. Gilman's earlier question.
    There is a very consistent process of reporting from levels 
of command all the way down to fairly small units. You've heard 
of the name, it's another one of our acronyms, it's a SORT, 
status of readiness and training of units. And an item that has 
been required in that category now for the past, I believe 
about 1\1/2\ years, has been the status of the chem/bio defense 
equipment that a unit has and the status of the training of the 
unit.
    So I think it would be safe to draw the conclusion that if 
a unit reported its status as fully capable, which would 
include equipment and training; and if, in fact, a series of 
units were selected to participate in any activity--the one 
that you mentioned could be one of those--and all of them had 
reported ``ready,'' then, in fact, everyone who showed up would 
be prepared to deal with the situation.
    Mr. Tierney. And I guess what I'm getting at is, we're not 
quite sure yet whether everybody that would be asked to show up 
would meet that criterion of readiness. That's what I was 
getting at, but I'm not sure you're able to answer that.
    General Goldfein. I'm not able to answer that question.
    Mr. Tierney. Should we be concerned, General, with the fact 
we recently fairly conducted the Millennium Challenge 2002, the 
warfare scenarios, that mocked the situation that we might 
expect to find in a possible war with Iraq, that during those 
exercises we did not get involved at all with any lethal 
biological or chemical agents or any scenarios under which 
those would be launched against our troops in terms of 
readiness and training? Wouldn't we expect that kind of a mock 
exercise would, in fact, engage in those types of activities so 
that we could assess our training level and our performance 
level?
    General Goldfein. Yes, sir. I would answer in two ways.
    First, I'm not personally familiar with Millennium 
Challenge, so it would be improper for me to attempt to judge 
that. I just don't know what was involved in the exercise.
    I will tell you from general experience, though, that we 
never get everything done in every exercise; but in a 
collection of exercises, over time, we get at everything.
    It could well be that this particular one was focused for 
some reason on some area, and that there is another exercise of 
great import that was conducted to cover that subject. And 
again, I would speak to my own experience in various combat 
units.
    Mr. Tierney. I say this not to engage you necessarily, but 
just for the record, because I'm reading off of reports about 
those exercises that basically indicate that Paul Van Riper, 
who is the retired Marine lieutenant general who was playing 
the Millennium military commander at that time, fully 
anticipated that he was going to be able to use them; and he 
asked to use chemical weapons and he was refused on that.
    And so it seems that, clearly, there was something--at 
least it was anticipated that they were trying to do a full 
exercise of what might have been met at that point in time and 
were refused.
    I have some concerns of that, but I clearly don't want to 
put you at a disadvantage.
    Mr. Chairman, I know I sent a letter to you asking whether 
or not we would have the opportunity to question people that 
might have been engaged with that exercise. Do you know whether 
or not we're going to be able to do that and when?
    Mr. Shays. The gentleman has asked the question. I don't 
think in the next month, only because we may be here only 2 
weeks and we already have schedules.
    But if you're asking me, should we have a hearing, 
absolutely. I would be prepared, even if I'm in a minority, to 
have a hearing next year or this year. When we get back, I'd be 
happy to work on a hearing with the gentleman.
    Mr. Tierney. My only concern is, I certainly would think we 
would want to do it sooner rather than later, because we want 
to know why people are stopped from exploring those avenues at 
a time when we definitely ought to be able to see whether or 
not we're prepared.
    Mr. Shays. In terms of two things, we wanted to focus in on 
the issues we're focusing in on now. The people you asked 
originally could not come today.
    But the bottom line is, you have identified a very logical 
hearing for this committee, and I would be happy to work with 
you to have one. Obviously, I know the sooner the better. I can 
just tell you, though, if I'm not here in the next 2 weeks I'm 
not going to be here the next 5 weeks.
    Mr. Tierney. Just, Mr. Allen, a question on the number of 
suits--I don't want to beat that question to death--the number 
of suits that are in our inventory now, protective gear, I 
thought I heard you say 1.5 million.
    Mr. Allen. No. In fact, perhaps I can help clarify the 
whole issue of the unaccounted-for suits.
    If you go back to 1989, when the first defective suits were 
produced by a company named Isratex, since that time we have 
issued several million suits to the military services for use 
in Desert Storm, Bosnia, etc. Of those several million suits 
that were issued over that period of time, up to today, 800,000 
were Isratex suits. Of those several million suits, 1.5 million 
are new JSLIST suits.
    Mr. Tierney. Are you saying several or seven?
    Mr. Allen. Several. I'm going to try to step you through 
the whole process in an attempt to clarify the issue of where 
we are with respect to accountability for suits.
    We have issued several million, I would estimate 6 to 8 
million suits over that period of time. Of those several 
million suits, 800,000 are Isratex suits. Of those several 
million suits, another 1.5 million were current new JSLIST 
suits. The balance were other BDOs by other manufacturers.
    There are--we can clearly tell there are about 4 million 
suits in the system today. So some millions of suits have been 
consumed. Some hundreds of thousands or millions of suits have 
been consumed since 1989.
    Because we went through such a rigorous process on multiple 
occasions to recall the very specific suits which were found to 
be defective, and because we know that there have been consumed 
3 to 4 million suits over that period of time, we have a 
relatively high level of confidence that we have captured the 
defective Isratex suits.
    The problem that we stand before this committee with is, we 
cannot account for the Isratex suits on a one-for-one basis. 
There is--short of some individual putting their eye on every 
single suit in the system today, we would not be able to ever 
make that statement.
    I hope that clarifies what----
    Mr. Tierney. It helps. I want to thank you, but it still 
gets us to the number, of the 800,000 Isratex suits, 250,000 
have yet to be accounted for. And you're assuming that 
someplace between zero and 250,000 have washed out in the 
general usage of training and----
    Mr. Allen. That is exactly correct, sir.
    Mr. Tierney. So 30 to 250,000 leaves us with a pretty high 
margin, leaves us with anywhere between as high as 16 percent 
of our suits that are out there, if it's a whole 250,000. So 
that would be pretty dramatic.
    It would seem to me that somewhere--Dr. Winegar, probably 
starting with you and through Mr. Allen on down--somebody would 
have the responsibility to then say, I want those 250,000 
suits, and here's the plan; and move it down there.
    So what is the plan to get those 250,000 suits, identify 
them, and take them off the shelf?
    Mr. Allen. At this point, we have repeatedly gone out to 
the services through the communications channels and asked for 
a 100 percent identification of those suits, and we think we 
have recovered all of them.
    Mr. Tierney. If you counted them, you're 250,000 short, so 
you know you haven't got them all. Because I assume you went 
out and asked for them, you counted the number you got a 
response for, and that's how you got from the 800,000 down to 
250, right?
    Mr. Allen. If the suits had been consumed, they can't 
identify them to us, they can't turn them in to us.
    Mr. Tierney. You have no way of telling whether they've 
been consumed or not. Your problem is, you don't know whether 
the people on the unit level are being responsive or not; you 
don't know--in identifying them, you don't know if they can. So 
until those suits go out by just--by the fact of expiring or 
something of that nature, you're not ever going to be certain.
    Mr. Allen. We will never be able to make positive 
identification unless we can actually put our hands on the 
250,000 suits.
    Mr. Tierney. When would be the last expiration date of 
those suits? How long are they anticipated to live?
    Mr. Allen. Let me think for 1 minute.
    The last--the final expiration dates for the suits 
purchased in the 1989 contract would be this year or next year; 
and 2 years hence for the suits manufactured in the 1992 
contract, or 3 years hence.
    Mr. Tierney. When the expiration date comes, do you have 
just a regular routine with--those suits are then taken off the 
shelf, marked training units and moved on?
    Mr. Allen. Yes, and it's the same routine we use to 
identify suits that we want to recall.
    Mr. Tierney. So we won't be certain for a number--for 
another several years that we've got them all. The only way 
we'll be certain is when that time period comes and you have 
some certainty that all of the manufactured suits for those 
particular years have been marked ``training,'' taken off the 
shelf and used for training only?
    Mr. Allen. Yes, sir.
    Mr. Tierney. And you have in place now a system where we 
thought--I was taking note of Mr. Decker's chart indicating 
that the expiration date seems to be happening at one pace and 
the replacement rate at another. We have some plan in place, I 
hope, to make sure that we get those numbers up.
    Can you tell us what that is and what you're doing?
    Mr. Allen. Yes. We have a--we've done a number of things to 
increase the capacity to produce suits. We have added 
manufacturers and we've added--one of the limiters for 
producing suits is the liner itself, the lining material. We've 
added--there's a separate plant now in production, and we're 
looking at another manufacturer of that as well in an attempt 
to increase our production capacity.
    We are replacing suits at a rate which today could 
replace----
    Mr. Shays. Would the gentleman just yield a second? It's a 
timely response. Are these domestic manufacturers or are they 
overseas?
    Mr. Allen. The end-item manufacturers are all domestic 
manufacturers. The liner material itself is originally made by 
a plant in Germany, who has established a second plant in the 
United States; and we are looking at an additional manufacturer 
of a comparable material to establish itself in the United 
States.
    Mr. Shays. Are any suits made overseas?
    Mr. Allen. No suits are made overseas.
    Mr. Shays. Any materials made overseas?
    Mr. Allen. Yes, some material made overseas.
    Mr. Shays. If I hadn't asked you that second point about 
suits and gone to the material, would you have volunteered that 
the material was made overseas?
    Mr. Allen. Certainly if it came up in the conversation. I 
mean----
    Mr. Shays. I mean, sometimes we always think that----
    Mr. Allen. It is not an issue that I have any concern about 
revealing, sir.
    Mr. Shays. In this day and age of terrorism, I have a 
concern about where they're made.
    Mr. Allen. We do too, sir, which is why we're looking to 
expand our industrial capacity to operate solely on our own.
    Mr. Shays. That's why it's pertinent that they are in fact 
being made overseas, the material.
    The gentleman's light has been on for a while.
    Mr. Tierney. One more question.
    Dr. Winegar, we talked about the process for assessing 
risk, and you agreed that it was somewhat flawed and you were 
going to take corrective measures to come up with new risk 
assessments.
    Ms. Johnson-Winegar. That's correct.
    Mr. Tierney. When do you think that will be fully 
implemented, so you're able to look at all of--the entire 
ensemble, as Mr. Decker was saying, and give us an assessment 
as whether it's low risk, no risk, medium risk or high risk?
    Ms. Johnson-Winegar. We're certainly in the process of 
doing that now. It would be no later than when we submit our 
next annual report to Congress, which would be early February, 
but hopefully before that.
    Mr. Tierney. When you say, ``hopefully before that,'' the 
end of this year, or just like January instead of February.
    Ms. Johnson-Winegar. Hopefully, by the end of this year.
    Mr. Shays. I'm going to recognize myself and yield in a 
second to Mr. Platts.
    One of the previous hearings we had on the whole issue of 
what terrorists could do in our ports, both our boat ports and 
our container ports. We also had a hearing on how we ship our 
own military hardware overseas; and 90 percent of what we ship 
goes over--what we send overseas, 90 percent, we learned, goes 
by non-U.S. carriers, which is of concern.
    And that's--I'm, you know, happy that you're identifying 
this concern as well, wanting to make sure something so 
important is made in the United States.
    I am wrestling with--before I tell what you I'm wrestling 
with, I will go with Mr. Platts. Then I'll see how much time I 
can wrestle with what I have left.
    Mr. Platts.
    Mr. Platts. Thank you, Mr. Chairman. I'll be brief. I 
actually just want to followup Mr. Tierney's line of 
questioning with Mr. Allen.
    In trying to get an understanding about this 250,000, if I 
took your answer correctly, you're saying that you don't have 
your hands on this number up to 250,000, but what you have done 
is, through the chain of command been informed that every unit 
that's been issued these has checked all of their suits, have 
not found any more of the defective manufactured suits?
    Mr. Allen. That's correct, sir.
    Mr. Platts. So you have pursued it?
    Mr. Allen. Multiple times, sir.
    Mr. Platts. So the people out with the individual units 
have come back, are you able to confirm that every unit has 
responded in that, yes, we've done the review, personally 
looked at every--what type of communication has come back?
    Mr. Allen. We went out through the military services, and 
they would be the ones that would certify or, if you will, hear 
from all of their units. As far as we know, all of their units 
have reported back to them, according to the information we 
have been provided by the military services.
    We work through their chain of command.
    Mr. Platts. Would any other panelists be able to comment 
further about that aspect of the actual checking of the suits?
    General Goldfein. Sir, I'll give you a personal experience.
    I came to this duty having previously been commander of one 
of our largest fighter wings. We often received very clear 
instruction to search for a particular lot or a particular 
suit. We very closely control all of these items, and we had a 
very straightforward procedure to go through.
    Then we had a reporting requirement back, that I referenced 
earlier to Mr. Tierney's question. And through that process, we 
went--again, I'm speaking from my own experience, but I would 
be very comfortable betting that other units operated in 
exactly the same way.
    Mr. Platts. Given that it would be a life-preserving--kind 
of like making sure your gun is well cleaned and operating, it 
would be something that would be taken very seriously by the 
people on the front lines.
    General Goldfein. Yes, sir, absolutely.
    Again, we exercised--speaking for the wing I commanded, we 
exercised often. I have countless hours wearing the equipment, 
days. And in every exercise we always had a series of inputs 
that would force us through this problem.
    I can recall on the top when the Air Combat Command 
inspector inspected my wing, we had at least three times where 
we were tasked with a defective something to see if, A, can we 
recognize we have a tasking; B, how did we process it; C, how 
did we get the young folks out of the wrong stuff and into the 
right stuff; D, how did we report it or destroy equipment or 
pass it where it's supposed to be passed.
    This is a very routine experience in my experience.
    Mr. Platts. So back to that typical, normal process, back 
to DLA is what you've been told by each of the services, 
they've done that review. And my understanding is, this 
specific manufacturer's suit would be clearly identifiable if a 
suit was looked at.
    Mr. Allen. Yes, sir.
    Mr. Platts. There wouldn't----
    Mr. Allen. There would be no question. We identify them by 
contract number, so people can easily read the number on the 
package and identify that suit.
    Mr. Platts. Would the suit itself, like if it was----
    Mr. Allen. Let me--just the suit itself--that's OK.
    The suit itself is vacuum packed. It looks like a miniature 
green duffle bag that's been shrink-wrapped. It's about so big, 
about so big around. And it has the contract number on it, I 
believe.
    Mr. Platts. On that individual pack?
    Mr. Allen. On every pack. So it would be easily 
identifiable.
    Mr. Platts. Is it accurate to say, what we're asking you to 
account for, the 250,000, is asking you to kind of prove a 
negative in the sense of, if they've been destroyed, you'll 
never be able to prove you have all 250,000, because if you've 
looked at them, you can say, we've looked at all the ones we 
have, none of those are in the 250,000 lots that we're looking 
for. So the best answer you can give is that, you know, we've 
proven that they're not in our possession, but you can't prove 
what happened to them.
    Mr. Allen. That's exactly correct, sir.
    Mr. Platts. Thank you, Mr. Chairman. Thank you.
    Mr. Shays. I think what I'm going to do is have my own full 
time. So I consider that Mr. Platts' time.
    And we'll go right now to Ms. Watson.
    Ms. Watson. Thank you very much, Mr. Chairman. Let me 
apologize for not being here for this part of the panel. But I 
am concerned, from the first panel, about if we are really 
prepared.
    And so let me ask of any one of you that would like to 
answer, what can our suits do, and can they protect against the 
lethal biological weapons that we believe Saddam Hussein has at 
the current time? And can we cover the necessary number of 
troops that will be there on the ground?
    Mr. Parker. Ms. Watson, the suits are qualified against a 
requirement document which specifies what the suit or the 
protective ensemble has to meet as criteria. That's driven out 
of a threat analysis looking at a broad array of threats.
    The threat that Iraq might present is well within the 
operational requirement characteristics of the ensemble, 
whether that's the lightweight ensemble or the battle dress 
overgarment ensemble. It's very rigorously tested against it.
    In fact, the criteria were developed against the Soviet 
Union, a much more rigorous threat than a country like Iraq 
could present, or probably any other country in the world at 
this point in time.
    So I would say emphatically that the suits can--the 
protective ensembles can meet or exceed any threat that the 
Iraqis could present, when employed by a trained force and 
properly maintained in the use environment.
    The quantity of suits that are available, if you're 
speaking specifically against the Iraqi circumstance----
    Ms. Watson. Yes.
    Mr. Parker. The quantities of the suits that are available 
in the inventory, given the likely size of the force that has 
been talked about--at least in the newspapers, let me put it 
that way--is more than enough to deal with the demands of that 
type of a warfight.
    Ms. Watson. I continue to hear it being said that Saddam 
Hussein possesses chemicals and biological weapons that are 
deadly, and he has used them on his own people. Let me say 
then, in light what we heard from the first panel that did risk 
assessments, there are 250,000 suits that are missing, and they 
feel that at this point there still is risk in terms of the 
protective suiting.
    So let me ask this, is it General Bond?
    General Bond. Yes, ma'am.
    Ms. Watson. Let's just sum up everything we've heard this 
morning and afternoon. Would you advise the commander in chief 
to send our troops today into that highly, shall I say, 
dangerous chemical and biological environment that we have been 
told on a daily basis is awaiting us?
    General Bond. Ma'am, that's really not my forte right now. 
But I can give you my personal belief in knowing from my 32 
years of experience, extensive tours in Korea in dealing with 
this.
    Ms. Watson. That's acceptable.
    General Bond. I feel we can meet the threat that's out 
there with an acceptable risk. Can we do everything? We'll 
never know whether we'll be fully prepared. But I know from 
personal experience, the training that we undergo and the 
training that we give our soldiers and what they're undergoing 
right now today, as we prepare for what the likelihood--that we 
feel that this is one of the highest criteria categories of 
training that they're undergoing, and that I feel assured, if 
it was my son or daughter out there, that they would be 
protected.
    Ms. Watson. Did we have this technology during the Gulf 
war?
    General Bond. Not to the extent that we have. We've made 
significant progress since the Gulf war from where we are 
today. Could we have gone further? Yes.
    You know, there are a lot of things we could have done, 
knowing what we know today. But my personal experience is, I 
think--given the information that we had and the way that we 
have moved forward, I think in this area of technology and 
where we've made great strides.
    Ms. Watson. I have to be constantly reminded that many of 
the veterans came back concerned of a lowered health condition. 
I am recalling the Vietnam veterans and Agent Orange and so on. 
And for years, our government denied that these conditions did 
exist, and might have been a result of biological and chemical 
warfare.
    And anyone that would like to answer, are all of you 
comfortable with sending our sons and daughters over in this 
environment with what we have today?
    Mr. Parker. Ms. Watson, I've worn predecessor versions of 
the current fielded equipment more than a dozen times in an 
immediately lethal environment with nerve agent sarin. Older 
forms of military equipment, more than a dozen times, in an 
environment that would have killed you within minutes. And I am 
absolutely confident that the versions we have in the field now 
are more than adequate to address the threat, without question.
    Ms. Watson. Could I quote you?
    Mr. Parker. Absolutely.
    Ms. Watson. All right. Because it seems to me that our 
veterans had tremendous trouble and are still having trouble, 
and I would like my constituents to be assured that--and it 
will be my constituents that will be on the front line; I 
guarantee you that--assured that when they send their sons and 
daughters, that their sons and daughters will be well 
protected, and their offspring in the future. And we're finding 
that this has not been the case in the past.
    And for me to support us going in on a preemptive strike, I 
want to be sure we're not putting--we're already putting our 
people into harm's way, but I want to be sure the side effects 
of the chemical and biological warfare will not be the deadly 
touch.
    I will quote you. Thank you.
    Mr. Shays. I would like to recognize myself now.
    Mr. Allen, I--and, kind of, I'll consider you bookends 
here, Ms. Winegar as well--I view you as being in charge of the 
entire chemical/biological program of the U.S. Government 
defense. Is that the way I should view you?
    Ms. Johnson-Winegar. Well, that's a tremendous 
responsibility, and thank you for the compliment. I do have----
    Mr. Shays. Just give me a short answer. Tell me your 
responsibility. If you want to define it more narrowly, do it, 
but fairly quickly.
    Ms. Johnson-Winegar. My responsibility is for research 
development and acquisition of chemical and biological 
defensive equipment.
    The responsibility for training, etc., is that of the 
services in accordance with their Title X responsibilities.
    Mr. Shays. Mr. Allen seemed to be passing the ball back to 
you as it related to inventory. If I heard him properly in his 
statement, I think he was saying that was your responsibility.
    Is inventory your responsibility?
    Ms. Johnson-Winegar. No, sir, I do not consider it my 
responsibility.
    Mr. Shays. Mr. Allen, did I hear you incorrectly.
    Mr. Allen. I didn't intend to imply that Ms. Winegar was 
responsible for inventory. What DLA is responsible for is 
procurement and distribution of these items of supply; and part 
of that procurement is the quality control and where we have--
--
    Mr. Shays. Let me just clarify. Distribution means you put 
is it somewhere, you give it--in other words, you send it 
somewhere?
    Mr. Allen. There are two levels of distribution sir. One 
level of distribution is in the DLA warehouses where we 
maintain equipment on behalf of the military services, in the 
DOD supply depos, if you will.
    Mr. Shays. DOD?
    Mr. Allen. Yes.
    Mr. Shays. And that's your responsibility?
    Mr. Allen. That is our responsibility. There are--there 
is--some portion of this equipment is sent to the deploying 
services, so that they can train with it.
    Mr. Shays. I hear you.
    Mr. Allen. They can deploy with it, etc. And that portion 
of the supplies is the responsibility of the military services.
    Mr. Shays. So it your statement that none of the 250,000 
potential defective gear is in any of your warehouses?
    Mr. Allen. That's correct.
    Mr. Shays. So now what you're basically saying to us is 
that you've sent it out into the field. Is it your 
responsibility to try to locate it?
    Mr. Allen. We, in conjunction with the program manager, 
have attempted to locate all----
    Mr. Shays. That's not what I asked. I didn't ask that what 
you've attempted to. I just want someone to take ownership.
    You know, in my office, if two people take ownership, no 
one has ownership. I always make sure that someone has 
ownership.
    I found your statement in the beginning and your answers to 
the first questions alarming, and I wanted to jump in; and now 
I've waited my chance. I felt you were very cavalier in your 
answers, and now I'm trying to understand why it seems so 
cavalier.
    I'll also say something to you. I come with a bias. I come 
with a bias that says, you know--I would say to my dad, you 
know, I just didn't remember, you know; and he would tell me, 
remember to be home at a certain time. He said, Well, I'll give 
you a little incentive; if you don't get home by 10 tomorrow, 
you can't go out of this house for a month.
    Now, you know what? That was an incentive. I didn't say I 
couldn't remember the next time. I made sure I remembered.
    I'm trying to figure out who's responsible and who can 
provide the incentive. For instance, this may seem extreme, but 
if I happen to feel, and others happen to feel, that defective 
suits are potentially endangering our troops; and we then 
spread the word out to the field, and the field ignores us, 
what happens if you said, You'll be court-martialed if you 
ignore it? Would the field ignore you then? No.
    I mean, that's pretty extreme, but we were court-martialing 
people because they didn't want to take anthrax even though 
they felt it would potentially harm them. So we were willing to 
be pretty strong when we wanted to be. So we had this 
incentive, this system of trying to provide rewards.
    I guess what I'm having a hard time understanding is, if 
you have dangerous equipment out there, you want to know where 
it is and you want it out of there. Now--so I want to know, do 
you take ownership of the responsibility to make sure we can 
get this defective equipment?
    Mr. Allen. Sir, before I answer that I have to apologize if 
I gave you the impression that I was being cavalier. That was 
absolutely not my intent. I take this very seriously.
    I would tell you that 34 years ago, I went in the service, 
and the chemical suits we wore were ponchos--not very 
protective. On top of that, though, I would tell you that DLA 
is not responsible for equipment that is owned by the military 
services. And once we give equipment to the military services 
and they use it for training or they use it for deployment----
    Mr. Shays. Who is not responsible, again?
    Mr. Allen. Defense Logistics Agency is not responsible for 
military equipment that is owned by the military services.
    Mr. Shays. OK. So tell me who is.
    Mr. Allen. The military services are responsible for 
equipment they purchase to use to execute their mission, as 
part of their Title X responsibilities.
    Mr. Shays. So I'm going to know that, by the book, that's 
true and I accept that. But the bottom line is, you want to 
make sure they get good equipment, correct?
    Mr. Allen. Yes, sir.
    Mr. Shays. So you, or partly you, your agency, were partly 
responsible for giving them defective equipment?
    Mr. Allen. Yes, sir.
    Mr. Shays. So there's got to be some kind of responsibility 
that, my God, we gave----
    Mr. Allen. Yes, sir, there is.
    Mr. Shays. So I'm going to accept the fact that while 
technically you don't have responsibility, you have to feel 
that you have some obligation here to try to take care of this 
problem.
    Mr. Allen. That's correct, sir.
    Mr. Shays. OK.
    What I'm trying to then understand is, did your answer in 
the beginning just stem from the frustrations of not feeling as 
a civilian that you're getting the respect from the military 
folk that you need in order to have them pay attention to these 
notices?
    Mr. Allen. No, sir. Again, I obviously conveyed an 
impression to you that was not intended on my part and 
apologize for that. My answer in the beginning was an attempt 
to explain that what we are responsible for is the procurement 
and distribution of these items of supply, and that where we do 
store it on behalf of the military services----
    Mr. Shays. Let me just say I will qualify it and see if you 
agree.
    Your responsibility is to make sure that they get equipment 
that is supposed to do the job as requested by the military, as 
designed by the military, and as created by the manufacturer; 
and that is your obligation. In other words, not just to get 
them equipment, but to give them equipment that works, correct?
    Mr. Allen. Yes, sir that is our job.
    Mr. Shays. In this case, the system failed.
    Mr. Allen. With Isratex, that's correct.
    Mr. Shays. It failed. It totally failed. And we had 800,000 
suits and we'd identified, you know, 550,000. We have 250,000 
to go. Now, admittedly they are the battle dress overgarment, 
and I'll get into the question of what equipment we send into 
the Middle East, but I just want to know, isn't it fair for me 
to accept that if you are responsible for making sure that good 
equipment, and in the end, maybe your predecessor, or two 
predecessors ago, didn't make sure that happened, for whatever 
reason, that you have an obligation to do everything to make 
sure that you relocate that bad equipment and get it out of the 
system?
    Mr. Allen. That is our obligation, and I think we have gone 
through extraordinary steps to try to meet that obligation on 
repeated instances, sir, to include last month, because the 
fund site that was used to provide the transportation accounts 
to return any deficient equipment, they might have found had 
expired. We, on our own, went out again to renew that fund site 
to again take in another opportunity to remind them to check 
their equipment and make sure it was not part of the Isratex 
equipment, and return it to us if it was so done, and return it 
to us at no cost to them--in fact for replacement. We've done 
as much as we could do to incentivize----
    Mr. Shays. Let me ask this: In cases like the no-cost--I 
think that's good, everyone is looking at their bottom line, 
but in my mind would be, my God, this is bad equipment. It 
could endanger our troops. If I was in the military, I would 
think you wouldn't need any incentive. You just need the 
command to make sure that people down a little further know.
    Mr. Allen, I'd be happy to have you ask questions if you 
would like and take my time. I don't want you to feel you have 
to leave.
    Mr. Allen of Maine. I do have to leave, but I don't mind. 
I've given a question to Jan Schakowsky. She can handle it for 
me.
    Mr. Shays. With regard to the joint list, we have the 
battle dress overgarment and in there are potentially zero to 
250--obviously, it's going to be less than 250,000, but it 
could be 100,000 it could be 50,000, it could be 20,000.
    We want to make sure--even if it's 2,000, we want to make 
sure it's zero, because we don't want 2,000 going into the 
Middle East. My understanding is that the Joint Service 
Lightweight Integrated Service Technology suits that we have, 
we wanted 4 million, and we've got how many now.
    Mr. Allen. We have 150--I'm sorry 1,000,500 suits in our 
possession, another 800,000 suits on order, currently being 
manufactured.
    Mr. Shays. I would think that someone would want to 
ascertain and say, with all commitment--and I would like to 
think that somebody would have been given the permission to say 
what would have to be the truth--whatever these 1,500 really 
high technology suits that other countries want to use, 
wherever they are in the field, we would collect them and make 
sure that they will be the only ones used in the Middle East. I 
would like to think that.
    Would that be illogical for me to make an assumption that 
should happen?
    Ms. Johnson-Winegar. No, sir. I think that's a perfectly 
valid assumption, as we plan for these times of contingencies, 
that we can readjust the inventory, if you will, and move 
existing suits from units that won't need them to those that 
will.
    Mr. Shays. One of the things that I think this committee 
should do is, we should contact the Department of Defense and 
have an ironclad agreement that none of the battle dress 
overgarments will be used, and any that are used we are certain 
are not part of the 250,000 defective equipment.
    I would think that would be like a no-brainer for us.
    And, Mr. Allen, do you want to say something?
    Mr. Allen. No, I certainly understand that perspective. I 
would agree with that perspective.
    Mr. Shays. One last question: Do we have the capability, if 
we need--we had 700,000 troops; I don't think we would have 
that many in Iraq this time, if in fact we do go in, but do we 
have the capability to bring together 500,000 of these suits?
    Mr. Allen. One of the improvements we have made since our 
last hearing on this subject is, absolutely we have the 
capability to identify the suits. In fact, within the DLA 
warehouses we have more than 500,000 of these suits we're 
storing on behalf of the services, so we could put our hands on 
those specific suits and make sure those were the ones that 
were issued. We have established some positive controls since 
the Isratexes were sent to the field.
    Mr. Shays. I would like to think that you would take 
ownership of the fact that you have these in your possession 
and you would want to make sure that these are the only suits 
that get out, unless I don't know something and the battle 
dress overgarment has a function that the JSLIST doesn't that 
is needed. But if the Joint List suit is going to do the job, I 
would think that's the only suit that would be there.
    Mr. Allen. The JSLIST suit would be the one of choice in 
all likelihood, and that would be the one we would issue, 
unless there were specifically instructed to do otherwise, sir.
    Mr. Shays. Thank you for your patience, Ms. Schakowsky. You 
could have 10 minutes' time, whatever.
    Mr. Schakowsky. Thank you. I want to thank the chairman for 
so relentlessly pursuing this issue, which has become 
heightened in its importance given the fact that we actually 
may be in a state of war, though I hope that can be avoided.
    I have been, not only as a member of this committee, 
participating in hearings like this, but also as the ranking 
Democrat on the Government Efficiency Subcommittee. I want to 
quote you something that was said by a licensed practical nurse 
that's been in Afghanistan. This was a quote from a Los Angeles 
Times article. He says if Hussein used chemical or biological 
weapons, ``he'd be an idiot,'' said Staff Sergeant John Hughes, 
a 38-year-old licensed practical nurse, who returned from a 7-
month stint in Afghanistan in mid-July. ``I don't think it 
would be a problem. It's something that the infantry trains on 
all the time.''
    It is with that sort of confidence that our enlisted men 
and women have that they would be going into harm's way in 
danger of biological and chemical weapons. But I want to tell 
you, after sitting in these hearings, both this subcommittee 
and my subcommittee, and hearing essentially the Keystone Cops 
way that we've been handling inventory and these defective 
suits, I would hate for our men and women in the armed services 
to know about that, because this would damage their attitude.
    And I want to talk to you about a couple of things that I 
still have been hearing that don't--that still don't give me 
confidence. You said, Mr. Allen, that we know the contract and 
lot numbers and so we can find these suits. And yet the GAO 
stated that the DOD could not easily identify, track and locate 
defective suits because inventory records do not always include 
contract and lot numbers.
    Are they mistaken or are you?
    Mr. Allen. What the GAO and the IG correctly identified is 
that, at the unit level, there is not a consistent inventory 
management system. And one of the IG's findings and 
recommendations to this panel and the DOD was to establish an 
inventory management system at the unit level that included all 
that information.
    At the wholesale level we do have that information, so we 
are able to maintain those controls at that level.
    At the unit level what they're talking about oftentimes is 
that many posts, camps and stations that are training in a 
regular environment, in some cases they're talking about gear-
gets on a ship at sea as people deploy with gear, because they 
may need it while they're deployed. And it's at that level 
where the lack of an inventory management system is.
    Mr. Schakowsky. Not only an inventory management system, 
but according to the Inspector General, not all units received 
the information from their higher headquarters about the suits. 
And as recently as April 2002, the IG continued to identify 
units that had not segregated those defective BDOs in their 
inventories; is that so?
    Mr. Allen. I can't question the IG's findings. We were not 
given that report until yesterday afternoon. I'd like to have 
the specifics of that, so that we could followup with that to 
determine if something happened in our procedures and our 
processes; we can make the corrections for the future. I was 
not aware of that until yesterday afternoon.
    Ms. Schakowsky. But a few minutes ago you asserted that we 
did. I think that it is at least important that we acknowledge 
the problem fully in order to be able to correct it.
    Just a few minutes ago you asserted that, in fact, all of 
these units had been informed and that we are going to be able 
to find these suits. So, please, I hope you will be making sure 
that every single unit is aware of them.
    The issue of inventory control, even on the new suits. We 
had testimony, I think it was in the Government Efficiency 
Subcommittee, that inventory control ranged from having 
information on a computer system to having it on erase boards. 
And you know how long-lasting that is. So the question of even 
being able to identify where the 1.2 million or however many 
working suits that we have seems to be a problem, and yet you 
seem very confident that we could call up the necessary number 
of suits, that we know where they are,and I don't feel as 
confident.
    You know, if we are talking about erase boards, who knows 
where they could be? And you are talking about on ship. What 
are we doing to centralize and reform this inventory control 
system so that we really do know where they are?
    Mr. Shays. Before the gentleman answers, I just want to, 
for the record, point out that was our hearing on inventory 
control in June; and we used, as an example, the suits. We used 
as an example the very issue we are doing right now.
    So it is kind of like we are doing the reverse. First, we 
did inventory and then talked about the suits. Now we are 
talking about the suits and talking about inventory.
    Ms. Schakowsky. I think Government Efficiency, though, also 
looked at inventory control, not just regarding the defective 
suits but now the new suits, knowing where they are.
    Mr. Shays. Right. And the hearing was on the pathetic 
nature of how we keep inventory on a whole host of issues, not 
just the suits.
    Ms. Schakowsky. Right. So what are we doing to make sure 
that we know where the good ones are?
    Mr. Allen. Based on the last hearing a couple of years ago, 
the program manager and the military services took 
responsibility to--and in part being driven by the committee 
here--to establish and report annually on the inventory status 
of those suits. That is a manual process at some part at this 
point. In some part, it is automated. I must make a distinction 
between the wholesale level inventory management and the 
visibility and the automation level that we have at the DLA and 
at the Army level, from the inventory management capability at 
the unit level.
    Ms. Schakowsky. But isn't that what we care about? Isn't it 
at the unit level that we fight a war?
    Mr. Allen. We keep suits and can supply suits at both 
levels. So, yes, we care about unit level. But we also care 
about at the--the wholesale level. And we do have much better 
capability, which we are expanding.
    I believe during the June hearing that the program manager, 
Mr. Bryce, outlined a test program he was going to institute to 
get visibility of suits as they pass to an operating level unit 
within the Marines Corps.
    He also testified, and it was part of my written record, 
that we are establishing an enterprise resource planning system 
which we will make available to link to all of the services' 
inventory records as a way to get a handle on the inventory 
from top to bottom. We are not there yet.
    Ms. Schakowsky. So we are doing annual testing?
    Mr. Allen. We are doing annual reporting, some portion of 
which is manual.
    Ms. Schakowsky. Does this kind of system apply to other 
inventory, or now you are just responding to the committee's--
both subcommittees' focus on suits?
    Mr. Allen. No. This kind of system would apply to all 
inventories, eventually. But one of the issues is that suits 
are probably--chemical protective gear is more important 
perhaps at this point than some other equipment which might not 
be so life protecting.
    Ms. Schakowsky. Well, let me ask you about the extent to 
which they are life protecting. I understand that the Navy 
SEALs are concerned because the suits don't work if there is 
saltwater on them. Is that the case?
    Mr. Allen. One of the operating requirements for these 
suits, the JSLIST suit, was to operate in a salt mist 
environment. If you immerse it in saltwater, no, it does not 
protect if there is immersion. But it does protect in a normal 
operating environment at sea where it is raining or it is 
misting.
    Ms. Schakowsky. Are you concerned that in the Gulf Region 
that this might put some of our people at least in harm's way 
if it is not--if saltwater itself--not mist, but water--would 
make the suits ineffective?
    Mr. Allen. I don't believe the JSLIST suits would ever be 
used by SEALs in their saltwater mission environment. The 
SEALs--when you are referring to the SEALs, they are operating 
underwater; and the JSLIST suits were not intended for use 
underwater.
    Ms. Schakowsky. So you are not concerned that the saltwater 
issue is a problem?
    Mr. Allen. The services did not make that a requirement 
for--one of the technical requirements for the suit.
    Ms. Schakowsky. OK.
    Mr. Allen. They built the requirement based upon the threat 
that they expected to face.
    Mr. Shays. Really, General Goldfein, this is your--you 
basically try to determine what you need; and, General Bond, 
you try to determine how you make it. So couldn't both of you 
also answer that question?
    Ms. Schakowsky. That would be helpful.
    General Bond. Well, it would be interesting to find out 
what the Navy and the special operation forces had requested to 
support the Seal's mission in this endeavor. The JSLIST suits 
were never intended for this. They may have a special purpose 
one, or this may be a new evolving requirement for which we are 
now going to get a requirement. We will supersede through--
while we wait it through the formal process, to now find a way 
to satisfy this one.
    There are mechanisms, I think, that science and 
technology--that we have that would allow us to have a suit 
that could withstand this.
    Mr. Parker. There is a specific undergarment which is 
designed for the special operating forces, including the SEALs, 
which has a rather extraordinary range of applications and 
extremely severe operating environments, which would be 
suitable for the, you know, the use that I think you are 
intimating in your questioning. That is available to the SEALs.
    The JSLIST was never intended for that type of an operating 
environment.
    Ms. Schakowsky. Do you all feel confident that we know 
where enough of the non-defective suits are right now so that 
they can be immediately put to use in a combat situation in 
Iraq?
    Mr. Allen. Unequivocally, yes.
    Ms. Schakowsky. You are certain that none of the defective 
suits would end up being used in that way?
    Mr. Allen. When you ask me if I am certain, I cannot be 
unequivocal about that. I have a high degree of confidence that 
there would be no defective suits utilized for a number of 
reasons, partly because of what we have been through to 
identify and cull out the defective suits;partly because of 
what the chairman mentioned, which would be the CINCs would 
want to use the new suits. And we know we can identify those 
suits.
    So, unequivocally, we could equip the force that is 
envisioned today with good suits and knowing, with virtual 
assurety, that they are all good suits.
    Ms. Schakowsky. I just have to say that I think, addressing 
some of these incredible inefficiencies at this late date, 
while it is important that we do it, would really astound most 
Americans, I think, the fact that we don't have a better handle 
on something as basic as these protective suits.
    But I am happy to hear that even though it is so late that 
we are trying to get a handle on it and that at the next 
hearing we will have a full report about where these 250,000 
defective suits are and that we have an inventory system 
capable of tracking all of these lifesaving, at the very least, 
equipment that our young men and women need.
    Thank you.
    Mr. Shays. Thank you.
    I ask just the indulgence of the committee to ask two 
questions that we have. We prepared questions beforehand, and 
usually they are covered by different members, but these two 
questions haven't been to our satisfaction. We want them on the 
record, so whether I am chairman a year from now or someone 
else, another party or whatever, we have this on the record so 
we can have a benchmark. I think really, General Goldfein, it 
may be in your area.
    I would ask, how will the establishment of the Joint 
Program Executive Office improve the CB defense requirement 
process?
    General Goldfein. That is--the way you stated the question, 
Mr. Chairman, is a bit of a mixture in sort of the way we 
describe----
    Mr. Shays. OK. I am going to ask you another question, and 
you decide which one you want to answer first and whether you 
want to.
    How will the establishment of a Joint Program Executive 
Office improve the CB material acquisition process?
    General Goldfein. Yes, sir. I am going to defer to General 
Bond on the Joint Program Executive, because that would be his 
business. I would, however, if I can help, I will answer on the 
requirements side. I will make a couple of comments.
    First of all, having a counterpart, a Joint Program 
Executive to match with me as a Director for Joint Requirements 
is a good thing. We should work--we should be joined at the 
hip. We should work hand in hand. In other words, I should do 
the work to establish the requirement. For example, earlier the 
comment was made about SEAL equipment. It there was a need, I 
should have a good system that will bring that need my 
attention.
    I would then hand that responsibility to the Program 
Executive and ask that he go forward and, for example, purchase 
an item. And I am making this overly simple.
    Mr. Shays. Sure. I understand.
    General Goldfein. We should work closely hand in hand. I 
should be aware whether or not he accomplished that task, 
because then I know whether that requirement has been met.
    So I guess my answer to your question would be that the 
Joint Program Executive, from my perspective, is the 
requirements person, is an important office, an important 
advantage, and the two of us should work--and we intend to--
hand in hand.
    I would prefer to defer to General Bond with regard to the 
specifics of that office.
    Mr. Shays. OK.
    General Bond. Mr. Chairman, in my prior job for the last 2 
years I was on the requirements and was the counterpart for the 
Army that worked up through the JROC process to validate 
requirements.
    It was not with malice aforethought that the chief or the 
Secretary moved me to this position now where I now take the 
requirements and now have responsibility for delivering actual 
performance.
    In that venue, the issue that General Goldfein Talks about 
is really clear, because we need to work very closely. He 
identifies requirements. I need then to tell him what really 
technology, along with Mr. Parker, is really achievable within 
the timeframes that they want. We don't want to set the bar too 
high, for which then our soldiers, sailors, marines and airmen 
are waiting and waiting for that out there.
    But at the same time, he wants to challenge us to make sure 
that we get the best possible capability out there for 
soldiers. We need to do that in a joined-at-the-hip manner, in 
which we make sure that we get the best capability out there. 
So we are going to work this together and will continue to do 
that in the future.
    Mr. Shays. And it is not that way right now?
    General Goldfein. That is correct, Mr. Chairman. That is 
why the chairman of the Joint Chiefs and the Under Secretary 
for Acquisition, Technology and Logistics collectively arrived 
at a position that said we need to come up to a better way, 
which is what generated this office I indicated to you earlier 
which we have just started.
    Mr. Shays. Thank you. That is very helpful information.
    Is there anything in this public part of this hearing that 
you want to put on the record?
    Ms. Schakowsky. Mr. Chairman, I didn't do justice to Mr. 
Allen's questions. Could I ask them briefly?
    Mr. Shays. Absolutely.
    Ms. Schakowsky. Thank you.
    It is my understanding that after 5 years--I think this is 
an old rule not a new rule--suits are supposed to be tested for 
defects annually; is that correct?
    Mr. Allen. I think what you are referring to is the shelf-
life extension program. We have a joint shelf-life extension 
program on all chemical equipment, and we set the timing on 
each piece of equipment differently.
    Ms. Schakowsky. Have you been doing that annual----
    Mr. Allen. For suits at--the 5th year we test it for shelf-
life extension, and we test it again at----
    Ms. Schakowsky. Have you been doing the 5 year?
    Mr. Allen. Yes. I think it is 5, 9, 12 and 14 year. We 
extend it up to 14 years if it passes the tests.
    Ms. Schakowsky. Mr. Allen's question was, does the Pentagon 
have the paperwork demonstrating that it has conducted annual 
testing on all suits that have extended past their recommended 
shelf life?
    Mr. Allen. Yes, we do. Especially since 2 years ago. We 
really--we really tightened up that process as a result of some 
problems that we experienced 2 years ago and partly as a result 
of this committee's hearing then.
    Ms. Schakowsky. Thank you.
    Mr. Shays. Thank you. I just want to make sure, since we 
are trying to be precise here. So we tightened up a system 
where we didn't have it. So there may have been some in the 
past where we weren't doing it. And your response to the 
question for Mr. Schakowsky, on behalf of Representative Allen, 
is that from this--from a period of 2 years ago on, you have 
started this paperwork.
    Mr. Allen. No, I wasn't clear. We also did the testing. I 
don't know that the documentation was as clean and as proper as 
it is now.
    And one of the reasons we did that, sir, is so that we 
could provide some assurance that there would be no defective 
suits going to any soldiers. And we--we do that according to 
all equipment at this point.
    Mr. Shays. OK. Let me ask, is there anything else that 
anyone wants to put on the record in this open hearing?
    We are going to adjourn. We are going to start sharp at 25 
after. It gives about 13 minutes if you want to quickly--on the 
basement level there is--I think you can get something to eat, 
if you wanted to just get something to drink, and we will 
resume the hearing at the other site behind closed doors that--
--
    You all are sworn in. It is just a continuation;and, 
frankly, we may just put all of you together so we can have an 
interactive dialog.
    But it will be by 25 after at the next site.
    This hearing is adjourned until 2:25.
    [Whereupon, at 2:10 p.m., the subcommittee recessed, to 
reconvene in closed session.]

                                   - 

</pre></body></html>
